<html>
<title> - STEPS NEEDED FOR A SUCCESSFUL 2014 TRANSITION IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 112-68]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-68
 
      STEPS NEEDED FOR A SUCCESSFUL 2014 TRANSITION IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


       Available via the World Wide Web: http://www.fdsys.gpo.gov



                  U.S. GOVERNMENT PRINTING OFFICE
67-890                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7215021d32110701061a171e025c111d1f5c">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biddle, Stephen, senior fellow for defense policy, Council on 
  Foreign Relations, Washington, DC..............................    18
    Prepared statement...........................................    19
Jones, Seth, senior political scientist, RAND Corporation, 
  Washington, DC.................................................     9
    Prepared statement...........................................    11
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Kilcullen, David, president and chief executive officer, Caerus 
  Associates, Washington, DC.....................................     5
    Prepared statement...........................................     6
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)

  


      STEPS NEEDED FOR A SUCCESSFUL 2014 TRANSITION IN AFGHANISTAN

                              ----------                              


                         TUESDAY, MAY 10, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Boxer, Shaheen, Durbin, Udall, 
Lugar, Corker, and Lee.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    My apologies to colleagues, witnesses, and audience, alike, 
for starting a little bit late today. We had some business, 
before the Finance Committee, that I needed to attend to. And I 
appreciate everybody's patience.
    This is the third of six hearings on Afghanistan and 
Pakistan that we are holding this month.
    Last week, we explored some aspects of the endgame in 
Afghanistan: what it might look like, how we might better 
engage with Pakistan on common interests and threats.
    Today, we're focused on Afghanistan and on the specific 
steps the administration might need to take to shift security 
responsibility to Afghan security forces by 2014. It's my hope 
that these hearings will help us develop a roadmap and at least 
broaden the understanding and engagement of the American people 
and of policymakers as to how the United States can shift 
responsibility to Afghanistan in a way that still protects our 
interests and increases our ability to respond to the threats 
on a global basis.
    We are fortunate to have a strong panel of witnesses. And I 
want to thank each of you for taking the time to be here today.
    Osama bin Laden's death was more than a critical triumph in 
our fight against terrorism. It provides a potentially game-
changing opportunity to build momentum for a political solution 
in Afghanistan that could also bring greater stability to the 
region, as well as ultimately enable the allies to bring their 
troops home.
    Let me be clear, I don't know of any serious policy person 
who believes that a unilateral precipitous withdrawal from 
Afghanistan would somehow serve our interests or anybody's 
interests. I don't believe that that is a viable solution, a 
viable option. I do think that we ought to be working toward 
achieving the smallest footprint possible in Afghanistan. What 
is necessary is a presence that puts Afghans in charge, 
pressing them to step up to the task, at the same time secures 
our interests and accomplishes our mission, which hasn't 
changed, even with the death of Osama bin Laden. And that 
mission is to destroy al-Qaeda and prevent Afghanistan from 
again becoming a terrorist sanctuary.
    I think one threshold needs to be restated as we consider 
the options, and that is that it is fundamentally unsustainable 
to continue spending $10 billion a month on a massive military 
operation with no end in sight. The good news is: I believe we 
don't have to. I'm convinced that we can achieve our core goals 
at a more sustainable cost, in both lives and dollars.
    I hope our witnesses will really help us understand, today, 
the nitty-gritty details of how we can get there.
    To begin with, we have to take a hard look at the 
capability and the sustainability of the Afghans to take 
responsibility for their own security. That is certainly the 
best course to transition, I think, in most people's judgment.
    But, despite our best efforts, there are challenges: 
corruption, predatory behavior, incompetence still evident 
within the Afghan army and police; attrition rates, although 
slowly improving, still remain debilitating; a series of deadly 
attacks by uniformed Afghans against their own troops, their 
own government officials, and our men and women in uniform, has 
undermined trust and morale.
    On top of these problems, there is the question, 
ultimately, of money, resources. I'm not sure that an Afghan 
security force of 350,000 people is sustainable, by either the 
Afghans or us. The estimates are that it would cost about $8 
billion to $10 billion a year to sustain a force of that size 
after the transition of 2014. Even the most optimistic 
estimates are that the Afghan Government's tax revenue will be 
around $2 billion; $2.5 billion, tops. That's the total, my 
friends. So, who will pay the bills to avoid having those armed 
soldiers and police mobilized as part of the next insurgency?
    The future of the security forces is only part of the 
discussion of what kind of Afghan state we can afford to leave 
behind. How democratic? How capable? How free of corruption? 
How national? How organized do Afghan institutions need to be 
to be able to provide the basic services and basic security? 
What is ``good enough,'' a word we have heard applied to the 
standard by which we might transition? At every turn we have to 
ask what we can realistically accomplish in the next few years 
to build sufficient Afghan capacity, and focus on those areas.
    Finally, as we did in Iraq, we need to determine how we can 
best support the political solution that everyone has agreed is 
ultimately the only way to resolve the crisis of Afghanistan. 
Again and again, from General Petraeus through ambassadors and 
other military leaders, and from the Secretary of Defense, all 
have confirmed that there is no military solution. So, looming 
large in front of us is the pregnant question: What is the 
political solution?
    We need to make our ultimate goals absolutely clear, for 
the sake of the American people, Afghans, Pakistanis, and 
everyone else who has a stake in the outcome. The 
administration needs to send a clear signal, with respect to 
the direction on the reconciliation efforts. Our lack of 
clarity has perhaps caused Afghanistan and Pakistan and many 
other players to persistently hedge their bets and plan for the 
worst rather than the best.
    We have three distinguished witnesses today who are going 
to help us explore these issues.
    Dr. David Kilcullen is an expert on counterterrorism and 
counterinsurgency. He was a civilian adviser to General 
Petraeus on the U.S. counterinsurgency missions in both Iraq 
and Afghanistan.
    Dr. Seth Jones is a senior political scientist at the RAND 
Corporation. He's a well-known expert on Afghanistan, and the 
author of the book, ``In the Graveyard of Empires: America's 
War in Afghanistan.''
    Stephen Biddle is a senior fellow for defense policy at the 
Council on Foreign Relations, and an expert in defense policy 
and strategy.
    So, gentlemen, we look forward to your help in addressing 
many of the questions I've just posed.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in welcoming our 
distinguished witnesses. We look forward to a very important 
hearing with them.
    Afghanistan has undeniable symbolic importance and can 
still be a source of threats to United States security. On 
that, we are all agreed. The question before us is whether 
Afghanistan is important enough to justify the lives and 
massive resources that are being spent there, especially given 
our Nation's debt crisis. Or, can we achieve the most important 
national security goals in Afghanistan--especially preventing 
the Taliban from taking over the government and preventing 
Afghan territory from being used as a terrorist safe haven--at 
far less expense?
    At our first hearing on Afghanistan last week, I offered 
four observations as a prelude. First, we are spending enormous 
national security resources in a single country. Second, 
although threats to United States national security do emanate 
from within Afghanistan's borders, these may not be the most 
serious threats in the region and Afghanistan may not be the 
most likely source of a major terrorist attack. Third, the 
broad scope of our activities suggests that we are trying to 
remake the economic, political, and security culture of 
Afghanistan, but that ambitious goal is beyond our powers. And 
fourth, although alliance help in Afghanistan is significant 
and appreciated, the heaviest burden will continue to fall on 
the United States.
    These observations, if accepted, call into question whether 
our vast expenditures in Afghanistan represent a rational 
allocation of our military and financial assets. This was true 
before Osama bin Laden was killed. His death has encouraged 
reflection on our policy in Afghanistan and may create some 
perceptual opportunities in the region. But a reassessment of 
our Afghanistan policy on the basis of whether our overall 
geostrategic interests are being served by spending roughly $10 
billion a month in that country was needed before our troops 
took out bin Laden.
    Our geostrategic interests are threatened in numerous 
locations, not just by terrorism, but by debt, economic 
competition, energy and food prices, the proliferation of 
weapons of mass destruction, and numerous other forces. Solving 
these problems will be much more difficult if we devote too 
many resources toward one country that has, historically, 
frustrated nation-building experiments.
    The Obama administration has targeted July for decisions on 
initial troop withdrawals. The President should not just 
withdraw an arbitrary number of troops. Rather, he should put 
forward a new plan that includes a definition of success in 
Afghanistan based on United States vital interests and a sober 
analysis of what is possible to achieve. I continue to stress 
that such a plan should include an explanation of what metrics 
must be achieved before the country is considered secure. It 
should also designate and eliminate those activities that are 
not intrinsic to our core objectives.
    In Afghanistan, measuring success according to relative 
progress has very little meaning. Undoubtedly, we will make 
some progress when we are spending more than $100 billion per 
year in that country. The more important question is whether we 
have an efficient strategy for protecting our vital interests 
that does not involve massive open-ended expenditures and does 
not require us to have more faith than is justified in Afghan 
institutions.
    In this context Congress needs to know much more about the 
prospective strategic partnership agreement that is under 
discussion with the Afghan Government. The cancellation of 
bilateral talks scheduled for last March underscored that 
progress on this agreement has been slow. The President and his 
team also need to establish much greater confidence regarding 
coalition efforts to train Afghan security forces.
    A DOD inspector general report from March of this year 
concluded that the NATO training mission ``lacks enough 
specialized personnel to initiate, manage, and oversee the 
rapidly growing number of contractors and effectively manage 
the use of ASFF funds.''
    The United States spent $9.2 billion in 2010 and more than 
$10 billion this year on this project. President Obama has 
requested nearly $13 billion for training in 2012. The high 
cost of this program is evidence of its centrality to 
administration strategy. But doubts also exist about whether 
newly trained security forces can assume responsibility for 
providing security in the country anytime soon. Even if 
training begins to produce units capable of independent action, 
tribalism and the corruption inherent to the central government 
create complications that could undercut the success of this 
experiment.
    In addition, after units are trained, what are U.S. 
obligations over the long term for sustaining them with 
equipment, pay, fuel and other inputs? According to some 
estimates, this could cost more than $6 billion per year.
    I am hopeful that these hearings will provide greater focus 
to the mission and strategy in Afghanistan in the context of 
broader United States vital interests. We look forward to our 
discussion this morning.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar, very much.
    We will begin with Dr. Kilcullen and just run down the 
table from there.
    Thank you.
    If I could ask everybody to try to keep your openings to 
around 5 minutes, your full statements will be placed in the 
record as if read in full, and then we'll have more chance for 
exchange with the Senators.
    Thank you.

  STATEMENT OF DAVID KILCULLEN, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, CAERUS ASSOCIATES, WASHINGTON, DC

    Dr. Kilcullen. Thank you, Mr. Chairman and members of the 
committee. I'm honored to be here in such distinguished 
company.
    I will keep my opening remarks fairly brief. And what I 
want to do is focus fairly narrowly, on the question of what 
actually has to happen on the ground inside Afghanistan in 
order to get to the point where we need to be in 2014.
    The way that you see the problem depends very much on 
whether you think that the insurgency--the Taliban--is the 
problem, or whether they're actually a symptom of a wider set 
of problems. I tend to the latter point of view. Most of the 
work that I've done in country over the last 7 years or so 
suggests that actually we're looking at a much broader cycle of 
instability, of which the Taliban is only part. And, if you 
want to transition successfully, you need to address that whole 
cycle.
    The first element in the cycle is corruption and 
criminality, which comes about, in part, because of the drug 
economy, but also, in large part, because of lack of 
accountability and corruption in international community 
assistance programs. What that does is, it creates a tsunami of 
illicit cash that washes around the Afghan system and creates 
incentives for abuse.
    The abuse is the second part of the problem. And it 
sometimes takes the form of actual physical abuse and violence, 
but more often it's expropriation of property, shakedowns, 
bribery, taking people's assets away, denial of justice.
    And that second part of the cycle creates the third part, 
which is rage. And that rage is directed from the population, 
not only against corrupt actors, but also against the 
international community, because they blame us for the behavior 
of corrupt people in their own districts.
    And then, the final part of the cycle is the fact that that 
rage empowers the Taliban, or whatever other insurgency 
elements are operating in a given district, and creates the 
conditions that lead to the corruption and criminality in the 
first place.
    And so, that cycle, if you want to address it, you need, 
essentially, four elements. You need a countercorruption 
element, you need a governance-reform element, you need some 
kind of political reconciliation element, and then, finally, 
you need targeted measures against the insurgency itself. So, 
counterinsurgency's very important in Afghanistan. But, it's 
really only one part of a much larger set of issues, which you 
could characterize as a stabilization problem.
    Now, all those four elements, that I just mentioned, are 
present in the ISAF campaign today. It's a question of how 
heavily we invest in each part of the problem. Right now, we're 
investing very heavily in defeating the Taliban, as a military 
force, and actually making very significant progress, I would 
argue, in that part of the problem. But, where we have really 
failed to engage fully in the issues that are going to confront 
us between now and 2014 is in the other parts; in particular, 
district-level reconciliation, anticorruption, and reforming 
the corrupt and abusive practices of a variety of power elites 
inside Afghanistan, not just government officials. Not all 
government officials are corrupt. There are some dedicated 
public servants within the Afghan Government. But, there are 
also a lot of power elites at the district level who are very 
exploitative of the population.
    I see three pathways toward transition that we need to 
integrate and to effectively do at the same time if we want to 
get there by 2014.
    The first pathway is what I would call the suppression 
path. It's a counternetwork approach or a counterterrorism 
approach. And it's about destroying the insurgents' ability to 
threaten the transition or to threaten the future stability of 
the Afghan state. It requires a lot of special forces, 
intelligence, surveillance, and reconnaissance effort, but it's 
the one area of the campaign where I think we're doing 
particularly well.
    The second element, or the second path, is the 
stabilization path. And that's essentially, at the district 
level, identifying all the inputs into what makes a stable 
district, and carrying out, basically, counterinsurgency 
operations to clear, hold, build, and then transition in each 
district. I think most members of the committee are very 
familiar with that aspect of the campaign.
    The third pathway is reconciliation, not just at the senior 
level with high-level Taliban, but at the local level; and 
again, not fundamentally between the insurgency and the 
population, but among different power brokers at the district 
level, leading to a stability environment, when we pull out of 
the district, which remains stable.
    I don't want to take any additional time to talk about 
those pathways. I would just make one final comment, which is 
that we have a constitutional crisis coming in 2014. The Afghan 
Government limits the term of the President to two terms. 
President Karzai is in his second term now. That term will run 
out in the middle of 2014. Who is our partner going to be 
toward the end of this transition process? I mean, it's an 
important factor to consider.
    I'll stop there, in the interest of time, and leave it to 
your questions.
    [The prepared statement of Dr. Kilcullen follows:]

              Prepared Statement of Dr. David J. Kilcullen

    Mr Chairman, members of the committee, thank you for the 
opportunity to speak with you today about this important national and 
international issue. I intend to keep my opening remarks brief in order 
to allow maximum time for discussion, and in order to do so I would 
like to focus narrowly on the question of what, specifically, needs to 
happen on the ground in Afghanistan in order to enable a transition in 
2014.

                         NATURE OF THE PROBLEM

    The answer to this question depends on whether you believe the 
insurgency in Afghanistan is the problem, or is a symptom of a wider 
set of problems. My work in and on Afghanistan over the past 7 years 
suggests the latter--that is, the insurgency arises from a wider set of 
causes, and just dealing with active fighters will be insufficient for 
effective transition.
    In particular, I see the war as arising from a four-part cycle of 
instability:

  <bullet> Corruption and criminality, arising in part from the drug 
        economy and in part from the international presence and the 
        contracting bonanza associated with it, creates a flood of 
        illicit cash into the hands of elites, power brokers, local 
        warlords and certain corrupt officials;
  <bullet> This corruption enables and incentivizes abuse, in the form 
        of expropriation of resources, denial of justice, physical 
        abuse and violence, against ordinary members of the Afghan 
        population;
  <bullet> These abuses create popular rage, cynicism, and 
        disillusionment with the Afghan Government, but also with the 
        international community, whom many Afghans hold responsible for 
        the behavior of abusive officials and elites;
  <bullet> This empowers and enables the insurgents, who are able to 
        pose as clean, just, incorruptible, and the defenders of the 
        people, and can exploit popular rage to build support; and the 
        insurgency in turn creates the conditions of instability, 
        violence and lack of accountability that drive the cycle 
        onward.

    As I have previously testified, we have seen this cycle deepen and 
worsen over the past decade of the war, and our focus (at various 
times) solely on destroying the main forces of the enemy has been 
ineffective in addressing the wider drivers of the conflict, or has 
even made things worse.
    To address this overall instability dynamic, we need four things: 
an anticorruption campaign, a governance reform campaign, a process of 
political reconciliation at the district and local level, and a robust 
security campaign to suppress the insurgency while these other elements 
have time to take effect.
    All these elements are present in our campaign today, and we have 
seen some very real security progress in Afghanistan in the past year, 
as well as limited progress on governance and rule of law. Yet progress 
on corruption, abuses, and political reconciliation is lagging, and we 
have heavily emphasized fighting the insurgents, while investing far 
less in addressing the other elements of the problem. This means that 
progress in the campaign is not only mixed, but that we are somewhat 
unbalanced.

                         PATHWAYS TO TRANSITION

    Based on all of this, and on recent developments in the campaign, I 
see three pathways to transition, which we might shorthand as 
suppression, stabilization, and reconciliation. These are not mutually 
exclusive, and in fact we need to integrate all three for transition to 
succeed.
    The first pathway is what we might call the Suppression Path. This 
is a counternetwork approach, focused on destroying the insurgents' 
ability to threaten the transition and reducing their military capacity 
as a threat to the Afghan state. This requires a high concentration of 
intelligence, surveillance, and reconnaissance effort, combined with a 
network of forward-deployed strike assets that can respond quickly to 
target the insurgents' leadership and specialist cadres, and can 
support and enable stabilization activities at the district level.
    Ideally, in a transition process, counternetwork operations would 
be transferred to Afghan special operations forces, the National 
Directorate of Security, and specialized law enforcement and military 
organizations of the Afghan Government, and would continue with 
assistance, advice, and enablers from the international community after 
the transition to Afghan lead has occurred. This of course depends on 
the outcome of discussions with the Afghan Government about the status 
of international forces and security assistance after 2014. The 
suppression path is already in place in Afghanistan, and in fact is one 
area of the campaign in which ISAF is performing extremely effectively.
    The second pathway is the Stabilization Path. This is a 
counterinsurgency approach, focused on stabilizing districts most 
heavily affected by the insurgency, reducing the insurgency's spread, 
and inoculating areas that have been stabilized in order to prevent the 
insurgents' return. This approach requires security operations and 
governance reform at the district level, and targets the three basic 
insurgent elements at the district level--the main force insurgent 
column, the part-time local guerrilla group, and the village-level 
underground or shadow district administration. In addition to 
destroying the effectiveness of the insurgency at the district level 
through targeted military and intelligence activity, the main tasks 
within the stabilization approach are to protect the population from 
insurgent intimidation, rebuild district and community-level political 
systems, and create self-defending communities that are resistant to 
reinfiltration by insurgents once our forces are no longer present. 
This process is often short-handed as ``clear-hold-build-transition.'' 
I think we all recognize, however, that it is an extremely time-
consuming and resource-intensive process, and that it requires a high 
degree of international civilian and military engagement at the 
district level. It also requires an Afghan partner, in the form of the 
Government of Afghanistan, that is willing to actually undertake the 
hard work of governance reform and anticorruption at the local level, 
to help stand up responsive government, and put in place responsive and 
effective administrative structures.
    ISAF has made enormous progress in the last year, particularly in 
the south, in improving security at the district and village level. But 
the hard fact is that the other aspects of stabilization--countering 
abuse, governance reform, standing up viable local political 
institutions--are lagging significantly. Village Stability Operations 
(VSO) are one particularly promising program, but if we consider the 
work remaining, the lack of appetite for reform on the part of some 
local partners, the lack of appetite in this country and others for the 
expense and effort of nation-building, and--most importantly--the lack 
of time given the 2014 transition timeline, it is extremely hard to see 
how we can ``get there from here'' using a stabilization approach 
alone. There simply isn't the time, will, or resources for classical 
counterinsurgency to work in Afghanistan by 2014.
    The final pathway is Reconciliation. This is a peace-building 
model, which recognizes that apart from a small committed hard core of 
full-time insurgents, the majority of people in the insurgency are 
local part-time guerrillas motivated in part by local abuses, in part 
by the presence of international forces in their area, and in part by 
community, ethnic and tribal affiliations and by ties of loyalty forged 
with members of various insurgent groups over decades of war. Much of 
the violence in Afghanistan is unconnected to the Quetta Shura, to 
Mullah Omar, let alone to
al-Qaeda. Local peace deals, complemented by a reintegration program to 
bring less committed members of the insurgency back to their 
communities, and by a national-level reconciliation program to make 
peace with higher level leaders of insurgent groups, are already in 
place. Again, the VSO program also plays a valuable role here, as do 
security operations that make people feel safe enough to reconcile, and 
reform and governance programs that address key grievances.
    In order for transition in 2014 to succeed, we need to make 
progress along all three pathways, so it is important to understand how 
they intersect. Strategically, the critical pathway that underpins 
everything else is stabilization. Stability operations at district and 
province level provide a basis for everything else we do, enable strike 
assets to be based far enough forward for counternetwork operations, 
and help the population feel safe enough to reconcile. Layered on top 
of stabilization, counternetwork strike reduces the insurgents' 
effectiveness and, by killing or capturing irreconcilables, makes it 
more likely that others will reconcile or reintegrate. Finally, 
reconciliation brings those who are willing to reconcile into a peace-
building process, further reduces the strength of the insurgency, and 
improves district stability by reducing conflict.
    These three approaches are mutually reinforcing--stabilization 
provides the firm base, and the better we do at counternetwork 
operations, the easier it becomes to reconcile with less committed 
insurgents, while the better we do at reconciliation, the fewer hard-
core insurgents we need to target. Ultimately this can create a 
virtuous circle that leads to rapid and sustainable improvements in 
security, as we saw in Iraq in 2007, and this can accelerate the 
process of stabilization.
    Thus, we could depict a workable transition strategy in Afghanistan 
as a process of ``Accelerated COIN,'' which can be represented 
graphically as follows:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Beyond these three aspects, two other elements are critically 
important to transition. These are the buildup of Afghan Government 
capacity (especially, the creation of robust and representative 
security forces), and the reduction of the insurgents' safe havens in 
Pakistan. In the interests of time, I will discuss these issues in 
response to members' questions rather than in formal remarks, however I 
would like to note one other key element today, and that is the coming 
transition crisis associated with President Karzai's term of office.

               THE COMING PRESIDENTIAL SUCCESSION CRISIS

    The Afghan Constitution limits the President to two 2-year terms; 
President Karzai is currently in his second term, which commenced in 
November 2009. His previous term expired in April 2009. Depending on 
whether you date the term from its commencement, or from the expiration 
of the previous term, this means that President Karzai needs to leave 
office as early as April 2014, or as late as November 2014. There is 
very little prospect that the Afghan Parliament will agree to extend 
his term or to grant him a third term, and even though there are a 
number of Supreme Court judges favorable to the President, three of 
these have overstayed their terms and would need to leave by 2014. So 
we are confronting a coming succession crisis, right at the critical 
time in a transition to Afghan control in mid-2014. One of the critical 
issues in transition at the political level is to ensure an effective 
Presidential succession, or at least a peaceful and stable resolution 
of the coming crisis. It will be too late to start thinking about this 
in 2014--it needs to be a topic of thought, discussion, and 
deliberation right now, or we run the risk of undermining any political 
and security gains that we may make in the next few years.
    Thank you again for the opportunity to discuss this important topic 
with you today; I look forward to your questions and comments.

    The Chairman. Thank you, Dr. Kilcullen.
    Dr. Jones.

   STATEMENT OF SETH JONES, SENIOR POLITICAL SCIENTIST, RAND 
                  CORPORATION, WASHINGTON, DC

    Dr. Jones. Thank you, Mr. Chairman, Senator Lugar, other 
members of the committee.
    I've spent the last several years in U.S. Special 
Operations Command, so will try and give a perspective from 
much of my time on the ground, as well as back in Washington.
    I'm going to lay out a couple of things: what I believe our 
objective should be, which are fairly limited; look at a range 
of options; and provide, in my view, costs and risks as we move 
forward.
    I think our--especially with the death of Osama bin Laden, 
in my view, our objectives in Afghanistan should be limited to 
two key issues. First is disrupting, dismantling, and defeating 
al-Qaeda and allied groups in the Afghan/Pakistan region. I 
would obviously point out this is not just al-Qaeda. The Faisal 
Shahzad attempted attack in Times Square was Tehrik-e-Taliban 
Pakistan. So, there are some other groups in this region. And 
both he and Najibullah Zazi were trained on the border, on a 
border that is quite porous. So, this clearly is one issue that 
directly impacts homeland security.
    And the second is denying al-Qaeda and its allies in 
Afghanistan both a safe haven but--and this is often under 
emphasized--an ally in Afghanistan. If we remember, the Taliban 
regime in the 1990s was not just provided a safe haven, but it 
was actually an ally of al-Qaeda, despite some differences.
    At this point, I'm going to lay out what I consider three 
plausible options for moving forward. One of them is a 
counterterrorism option; the second is a comprehensive 
counterinsurgency; and the third is somewhere in between, which 
is where I will fall into.
    The first is a counterterrorist option. As I said earlier, 
I'm just coming from Special Operations Forces. This really is 
a JSOC-type direct-action mission, to capture or kill al-Qaeda 
and other terrorists; CIA units on the ground, as well. And it 
would essentially limit our focus to a very small direct-action 
footprint, both in Afghanistan but also threats along the 
border.
    I would warn that there are several risks in this strategy 
that are worth understanding. The first is, it will reaffirm a 
regional perception that the United States is not a reliable 
ally. Some people may consider that important, some may not. 
But, it certainly is a risk. Second is, it, in my view, fails 
to address the elimination of a sanctuary and an ally in 
Afghanistan, certainly does not prevent an ally of terrorist 
groups from emerging unless the Taliban and its allies are 
defeated or agree to a settlement.
    Second, I suspect that a precipitous American drawdown will 
encourage Afghanistan's neighbors, including Pakistan, to 
increase their support levels to Afghan insurgent groups, the 
Haqqani Network and the Taliban, as a bulwark against a 
perceived Indian/Afghan access in Afghanistan. And as we will 
probably note in the question-and-answer session, my concern 
right now is with senior al-Qaeda leadership, from Zawahiri to 
Ilyas Kashmiri, Abu Yahya al-Libi and others. There is still a 
relationship with senior elements of the Taliban and the 
Haqqani Network. That is a concern.
    The second option would be a comprehensive 
counterinsurgency option, which probably decreases the U.S. 
footprint somewhat, but is along the same lines as exists right 
now. I will not go into this in much detail, except to say that 
it is probably unsustainable, both from an American and from an 
Afghan standpoint, for a range of reasons, that I'd be happy to 
get into later.
    What I'm going to very briefly, in about 30 seconds, 
outline is what I'm going to call an Afghan-led 
counterinsurgency option. And I think it leverages U.S. Special 
Operations Forces both for CT efforts, but also for 
counterinsurgency.
    The specifics--and we can get into them later--would be: 
train and equip Afghan National Army and Afghan National Police 
forces; support what's now called Afghan local police and 
village stability operations from the bottom up--that is 
helping Afghan communities push back against the insurgency; 
conducting some direct-action operations; and then providing a 
range of enablers--intelligence, civil affairs, and other 
efforts like that. I've got numbers, in my written testimony, 
on what each of these options might look like, in terms of 
United States as well as Afghan forces.
    Let me just summarize, real briefly, in conclusion, that I 
think there are several ways for the United States to achieve 
the limited objectives I noted earlier. One is if al-Qaeda is 
destroyed in the Afghan/Pakistan region and no longer poses a 
threat to the United States homeland. A second is if the 
Taliban breaks ties with
al-Qaeda. And a third is if Afghan National Security Forces and 
its allies can sufficiently degrade the insurgency. At the 
moment, in my view, all three means should be pursued 
simultaneously until one of them, or some combination, 
adequately achieves core U.S. objectives.
    Thank you.
    [The prepared statement of Dr. Jones follows:]

                  Prepared Statement of Seth G. Jones

    The death of Osama bin Laden and the upcoming 10th anniversary of 
the U.S. involvement in Afghanistan have triggered several important 
policy issues. This testimony poses several questions. What should the 
U.S. objectives be in Afghanistan? Based on these objectives, what are 
America's military options (and what would the implications be for 
transition)? Finally, what are the political options, including the 
possibility of a peace settlement?
    I argue that U.S. objectives in Afghanistan should be tied to 
narrow U.S. national security interests, and the U.S. military strategy 
should transition to an Afghan-led counterinsurgency strategy. This 
strategy would involve decreasing the U.S. military footprint and 
relying on an increasingly prominent role of U.S. Special Operations 
Forces to help Afghans conduct counterterrorism and counterinsurgency 
operations. It would require assisting Afghan national and local forces 
degrade the insurgency and target terrorist leaders. Implementing this 
strategy would require decreasing the U.S. military footprint to 
perhaps 30,000 or fewer forces by 2014 and surging Afghan National 
Security Forces and Afghan Local Police. It would also include 
leveraging U.S. Special Operations Forces, CIA, and some conventional 
forces to conduct several tasks: train, equip, and advise Afghan 
National Security Forces; assist local communities improve security and 
governance from the bottom up (especially the Afghan Local Police and 
Village Stability Operations programs); conduct direct action 
operations against high value targets; provide a range of ``enablers,'' 
such as intelligence, civil affairs, and military information support 
operations.
    There are several ways for the United States to achieve its limited 
objectives in Afghanistan. The first is if al-Qaeda is destroyed in the 
Afghanistan-Pakistan region and no longer poses a serious threat to the 
U.S. homeland. The second is if the Taliban breaks ties with al-Qaeda. 
The third is if Afghan National Security Forces and local allies (such 
as Afghan Local Police) can sufficiently degrade the insurgency and 
prevent the return of the Taliban with minimal outside assistance. At 
the moment, the United States should pursue all three means 
simultaneously--targeting al-Qaeda and its allies, political 
negotiations, and Afghan-led counterinsurgency--until one of them, 
alone or in combination with the others, adequately achieves core U.S. 
objectives.

                      I. OBJECTIVES IN AFGHANISTAN

    The U.S. objectives in Afghanistan should be limited and tied to 
narrow U.S. national security interests. They include:

  <bullet> Disrupt, dismantle, and defeat al-Qaeda and allied groups in 
        Afghanistan and Pakistan that threaten the U.S. homeland and 
        its interests overseas
  <bullet> Deny al-Qaeda and its allies a safe haven and an ally in 
        Afghanistan that threaten the U.S. homeland and its interests 
        overseas

    As illustrated on September 11, 2001, Afghanistan was not just a 
sanctuary for al-Qaeda, but the Taliban was an ally. There were 
disagreements between Taliban and al-Qaeda leaders, as there are 
between most organizations. But Osama bin Laden's decision in the late 
1990s to move from Tora Bora to Kandahar, only a few miles from Mullah 
Omar's residence, and the Taliban's refusal to hand over bin Laden 
after September 11 indicated a viable relationship. Today, the United 
States cannot accept a situation in which al-Qaeda and its local allies 
have a sanctuary to plan and train for terrorist attacks against the 
U.S. homeland. Nor can the United States accept an Afghan Government 
that is an ally of terrorists. Al-Qaeda's continuing relationship with 
senior Taliban, Haqqani, and other militant leaders--including the 
Tehrik-e-Taliban Pakistan and Lashkar-e-Tayyiba--suggests that a 
Taliban-led government would be a risky gamble for U.S. national 
security. A precipitous U.S. withdrawal and continuing Pakistan support 
to Afghan insurgent groups could certainly lead to Taliban control of 
part or most of Afghanistan over the next decade.

                          II. MILITARY OPTIONS

    To achieve these limited objectives, there are several possible 
military options: (1) counterterrorism, (2) comprehensive 
counterinsurgency, and (3) Afghan-led counterinsurgency. All come with 
risks and benefits. They involve different strategies and require 
different force levels. Figure 1 outlines possible U.S. force levels 
over the next 5 years. They vary in several respects--including their 
overall strategy, the number of forces required for 2014, and the slope 
of the curve in reducing U.S. forces. These levels are meant to be 
illustrative. Actual planning would need to be based on a more fine-
grained analysis of unit deployments, conditions on the ground, 
performance of Afghanistan national and local forces, and other 
factors.

         Figure 1: Example of U.S. Force Reductions, 2011-2015

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    1. Counterterrorism: The first is a counterterrorism strategy. 
While there are several variants of this strategy, most agree on 
quickly withdrawing all--or most--military forces from Afghanistan and 
relying on U.S. Special Operations Forces and CIA units to capture or 
kill al-Qaeda and other terrorists that threaten the U.S. homeland and 
its interests abroad. It would involve rapidly decreasing the number of 
U.S. forces in Afghanistan, leaving between several hundred and several 
thousand Special Operations Forces and CIA personnel to conduct direct 
action missions. The U.S. footprint in Afghanistan might more closely 
resemble the current U.S. footprint in Yemen: lean and lethal. In 
addition, a counterterrorism strategy would also require a range of 
support elements such as intelligence, surveillance, and reconnaissance 
assets; air support for combat patrol, close air support, and other 
missions; and perhaps a small number of conventional forces for 
logistics and force protection.
    This strategy has the benefit of significantly decreasing the 
financial burden on the United States, minimizing the deaths of 
American soldiers, and allowing the United States to focus on other 
areas of the world where it may have strategic interests. The death of 
Osama bin Laden has already increased calls for such an approach.
    But a counterterrorism strategy has several risks which likely 
outweigh its benefits. A rapid and large-scale withdrawal of U.S. 
forces reaffirms the regional perception that the United States is not 
a reliable ally. More importantly, a rapid U.S. withdrawal would fail 
to address the elimination of a sanctuary where al-Qaeda and its allies 
can reside. It treats the symptom and not the underlying disease. 
Indeed, a counterterrorism strategy would likely increase Pakistan's 
impetus to support the Taliban and other insurgent groups as a bulwark 
against a perceived Indian-Afghan axis in Afghanistan. The possibility 
of a Taliban victory in Afghanistan has serious risks since al-Qaeda 
leaders, including Ayman al-Zawahiri, Abu Yahya al-Libi, and Ilyas 
Kashmiri, retain an active relationship with senior Taliban and Haqqani 
Network leaders. Osama bin Laden would not have been killed if the 
United States had been unable to operate in Afghanistan. In the future, 
the United States will only be able to stay in Afghanistan if the 
Taliban is prevented from retaking power.
    The United States should have learned its lesson from September 11, 
2001: the Taliban would likely allow a range of terrorist groups to 
operate and train on its soil. Some of these groups, such as al-Qaeda, 
Tehrik-e-Taliban Pakistan, and Lashkar-e-Tayyiba, present a threat to 
the U.S. homeland. Indeed, on May 1, 2010, Faisal Shahzad, who was 
trained in Pakistan by Tehrik-e-Taliban Pakistan bombmakers, packed his 
Nissan Pathfinder with explosives and drove into Times Square in New 
York City on a congested Saturday night. Only fortune intervened, since 
the improvised explosive device malfunctioned.
    Some have argued that al-Qaeda operatives primarily reside in 
Pakistan, not Afghanistan. But the 1,519-mile border, drawn up in 1893 
by Sir Henry Mortimer Durand, the British Foreign Secretary of India, 
is largely irrelevant for militant groups. Locals regularly cross the 
border to trade, pray at mosques, visit relatives, and--in some cases--
target NATO and coalition forces. Indeed, al-Qaeda migration patterns 
since the anti-Soviet jihad show frequent movement in both directions. 
Osama bin Laden established al-Qaeda in Peshawar, Pakistan in 1988, 
though he and other Arab fighters crossed the border into Afghanistan 
regularly to fight Soviet forces and support the mujahedeen. When bin 
Laden returned to the area in 1996 from Sudan, he settled near 
Jalalabad in eastern Afghanistan and later moved south to Kandahar 
province. After the overthrow of the Taliban regime, however, most of 
the al-Qaeda leadership moved back to Pakistan, though some settled in 
neighboring Iran. This tendency to find safe havens in both Afghanistan 
and Pakistan will likely continue.
    Based on historical patterns, al-Qaeda and other groups would 
almost certainly increase their presence in Afghanistan in a Taliban-
run Afghanistan. A counterterrorism strategy will unlikely prevent this 
outcome, especially if Pakistan continues to back the Taliban and other 
insurgent groups.
    2. Comprehensive Counterinsurgency: The second option would require 
keeping a fairly large U.S. military footprint in Afghanistan to 
conduct what some U.S. Government assessments refer to as 
``comprehensive, population-centric counterinsurgency operations.'' \1\ 
As outlined in the U.S. Department of Defense's Report on Progress 
toward Security and Stability in Afghanistan, the goal would be fairly 
broad: to protect the Afghan people, neutralize insurgent networks, 
develop Afghan National Security Forces, and support the establishment 
of legitimate governance and sustainable socioeconomic institutions. 
This strategy is most consistent with conventional counterinsurgency 
theories.\2\ It would likely require continuing to keep fairly robust 
levels of American forces in Afghanistan through 2014, perhaps up to 
60,000 U.S. soldiers, depending on conditions on the ground and other 
factors. These forces would continue to engage in combat operations, as 
well as train, equip, and advise Afghan forces.
---------------------------------------------------------------------------
    \1\ U.S. Department of Defense, ``Report on Progress Toward 
Security and Stability in Afghanistan and United States Plan for 
Sustaining the Afghan National Security Forces'' (Washington, DC: U.S. 
Department of Defense, April 2011).
    \2\ U.S. Army and U.S. Marine Corps, ``Counterinsurgency,'' FM 3-
24, MCWP 3-33.5 (Washington, DC: Headquarters Department of the Army 
and Headquarters Marine Corps Combat Development Command (December 
2006).
---------------------------------------------------------------------------
    But a comprehensive counterinsurgency approach has risks. To begin 
with, it is probably not sustainable over the long run in Afghanistan 
or the United States. In Afghanistan, it does not adequately prepare 
Afghan national and local forces to fight the insurgency and secure 
their country. Afghan support for the U.S. military has declined every 
year since 2005, though it is still above 50 percent.\3\ American 
support for the war has also been declining. As discussed in the next 
section, a range of initiatives--including the Afghan Local Police 
program--have shown serious potential, indicating that Afghans are 
willing to take the lead in counterinsurgency operations. In fact, 
large numbers of U.S. forces will likely inhibit the ability of Afghan 
forces to operate effectively, since most continue to use international 
forces as a crutch.
---------------------------------------------------------------------------
    \3\ ABC News, BBC, ARD, Washington Post, ``Afghanistan: Where 
Things Stand,'' December 6, 2010.
---------------------------------------------------------------------------
    3. Afghan-Led Counterinsurgency: A third option would be to 
transition toward an Afghan-led counterinsurgency strategy that relies 
on a limited Special Operations Force footprint, aided by the CIA and a 
reduced number of conventional forces. On the military side, it would 
focus on two goals: (1) assist Afghan national and local forces degrade 
the insurgency and (2) target terrorist leaders. It is different from 
the counterterrorism strategy because it relies on U.S. Special 
Operations Forces and others to conduct counterterrorism and 
counterinsurgency. And it is different than comprehensive 
counterinsurgency because it would largely terminate U.S. combat 
operations by 2014 except for targeting terrorist leaders. An Afghan-
led counterinsurgency strategy would involve using U.S. forces to 
conduct several tasks:

  <bullet> Train, equip, and advise Afghan National Army and Afghan 
        National Police forces (top-down counterinsurgency);
  <bullet> Assist local communities improve security, governance, and 
        development--including through village-level community forces 
        such as Afghan Local Police (bottom-up counterinsurgency);
  <bullet> Conduct direct action operations against high value targets 
        (counterterrorism);
  <bullet> Provide a range of ``enablers,'' such as intelligence, civil 
        affairs, and military information support operations.

    This strategy would require decreasing the number of U.S. forces to 
perhaps 30,000 by 2014, depending on ground conditions and other 
factors. As illustrated in Figure 2, it would also require a robust 
Afghan National Security Force and Afghan Local Police presence for the 
near term, which could then decrease as security conditions improved. 
One of the critical parts of this strategy is supporting growth of the 
Afghan Local Police, a ``bottom-up'' component of the campaign plan 
that allows Afghan communities to stand up for themselves. The Afghan 
Local Police program, which was established in August 2010 by President 
Karzai, has undermined Taliban control in Helmand, Kandahar, Oruzgan, 
and other provinces by helping villagers protect their communities and 
better connecting them to district and provincial government. Despite 
some off-kilter media reports, the Afghan Government and NATO forces 
have been fairly meticulous in choosing locations where locals have 
already resisted the Taliban, vetting candidates using biometrics and 
available intelligence, and training and mentoring local villagers. 
They've also helped ensure Afghan Local Police are small, defensive 
entities under the supervision of local shuras and the control of the 
Ministry of Interior.

  Figure 2: Example of Force Numbers for Afghan-Led Counterinsurgency

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This strategy entails some risks. It assumes that Afghan National 
Security Forces and local allies, with assistance from U.S. Special 
Operations Forces and others, would be adequate to degrade the Taliban-
led insurgency. Along with the comprehensive counterinsurgency 
strategy, it also assumes that Afghan central government institutions 
would be adequate to establish order and deliver services, at least in 
key urban areas. Current levels of corruption and incompetence raise 
long-term governance concerns. Finally, a lower U.S. footprint risks 
backsliding if Afghan National Security Forces and Afghan Local Police 
fail to degrade the insurgency.
    But the Afghan-led counterinsurgency strategy has several benefits. 
It relies on Afghans to do the bulk of counterinsurgency, but with U.S. 
assistance and oversight. It also ensures a steady drop in financial 
costs of the war, though not at counterterrorism levels. At its core, 
it would involve a combination of top-down and bottom-up efforts. There 
is good reason to believe an Afghan-led counterinsurgency strategy 
could degrade the Taliban and other insurgent groups. U.S. intelligence 
assessments have indicated that the Taliban and its allies have lost 
control of some territory over the past year in the south, the 
Taliban's center of gravity. One of the primary reasons, according to 
several of these assessments, has been the introduction of Afghan Local 
Police and Village Stability Operations. In addition, a growing number 
of Americans believe the war is now going well, as illustrated in 
Figure 3. Now is not the time to abandon this promising effort.

      Figure 3: American Perceptions of the War in Afghanistan\4\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                         III. POLITICAL OPTIONS

    In addition to military options, there are also important political 
options. Some have argued that a political settlement to the conflict 
is critical to peace in Afghanistan. Peace negotiations would be 
desirable if they succeeded in a settlement. Opinion polls show high 
levels of support within Afghan society for a negotiated settlement, 
and a willingness to bring Taliban members back into the fold, though 
not to run the country. When asked who they would rather have ruling 
Afghanistan today, 86 percent of Afghans said the Karzai government and 
only 9 percent the Taliban, according to a December 2010 poll by ABC 
News, BBC, ARD, and the Washington Post. When asked who posed the 
biggest danger in the country, 64 percent of respondents said the 
Taliban, up from 41 percent in 2005.\5\
---------------------------------------------------------------------------
    \4\ Gallup, ``Americans Divided on How Things Are Going in 
Afghanistan,'' April 8, 2011.
    \5\ ABC News, BBC, ARD, Washington Post, ``Afghanistan: Where 
Things Stand,'' December 6, 2010.
---------------------------------------------------------------------------
    But there are good reasons to be skeptical of a political 
settlement, at least in the short-term. First, insurgencies often end 
with a military victory by one side, rather than a peace settlement. 
According to one study, military victory was the primary reason why 
civil wars and insurgencies ended between the 1940s and 1990s, though 
peace settlements became more common in the 1990s and 2000s.\6\ 
According to another study, of the roughly 55 wars fought for control 
of a central government (as opposed to secession or regional autonomy) 
since 1955, 75 percent ended with a clear victory for one side. The 
government crushed the rebels in at least 40 percent of the cases, 
while the rebels won control of the center in 35 percent. Power-sharing 
agreements that divide up control of a central government among the 
combatants have been far less common.\7\ This has been particularly 
true in Afghanistan--including during the 1990s--where peace efforts 
brokered by the United Nations failed in Afghanistan.
---------------------------------------------------------------------------
    \6\ Monica Duffy Toft, Securing the Peace: The Durable Settlement 
of Civil Wars (Princeton, NJ: Princeton University Press, 2009).
    \7\ James D. Fearon, ``Iraq's Civil War,'' Foreign Affairs, Vol. 
86, No. 2, March/April 2007, p. 8.
---------------------------------------------------------------------------
    Second, a fairly robust body of research has found that several 
conditions present in Afghanistan make it difficult to establish a 
peace settlement. These conditions include a long history of conflict, 
the absence of a perceived winner, and geographic contiguity.\8\ In 
addition, the ideological vision of Taliban leaders, which is based on 
an extreme interpretation of Deobandi Islam, is likely incompatible 
with that of the Karzai government and most Afghans. It's not difficult 
to see why the Taliban is unpopular. The group subscribes to a radical 
interpretation of Sunni Islam established in Deoband, India, in 1867. 
In the 1990s, the Taliban closed cinemas and banned music, along with 
almost every other conceivable kind of entertainment. Most Afghans 
don't subscribe to their religious zealotry, which the founders of 
Deobandism wouldn't even recognize.
---------------------------------------------------------------------------
    \8\ Virginia Page Fortna, ``Peace Time: Cease-Fire Agreements and 
the Durability of Peace'' (Princeton, NJ: Princeton University Press, 
2004).
---------------------------------------------------------------------------
    Third, a peace settlement with the Taliban runs the risk of 
escalating conflict with Tajik, Uzbek, Hazara, and anti-Taliban 
Pashtuns in Afghanistan. Many current and former leaders, including 
former head of the National Directorate of Security Amrullah Saleh, 
have expressed alarm about a peace settlement. Such a settlement could 
trigger a military buildup among northern commanders, such as Atta 
Mohammad Nur, Abdul Rashid Dostum, and Mohammad Fahim, causing the 
war's center of gravity to shift north. Indeed, reports indicate that 
northern commanders are already discussing a military buildup if there 
is a settlement with the Taliban.
    In the end, however, the benefits of continuing peace negotiations 
outweigh the costs--even if negotiations fail. The U.S. demonstrated 
during the cold war that direct dialogue with the Soviet Union could be 
helpful in passing information (including threats) and correcting 
misinformation. It may also cause fissures within insurgent ranks 
between those who support--and those who oppose--settlement talks. 
Negotiations with the Taliban and other insurgent groups should be 
supported, even if the probability of a settlement is low.

                         IV. ADDITIONAL FACTORS

    At least three additional factors are critical over the long run, 
regardless of which strategy is pursued. The first is sustainability. 
The key is analyzing what needs to occur to make key economic sectors 
sustainable--or somewhat sustainable--without massive foreign 
resources. Some economists are concerned about the potential for a 
recession in Afghanistan when the international funding flow from the 
International Security Assistance Force (ISAF) decreases. This would 
not be a result of declining development aid, but rather a decrease of 
services from ISAF activity. How can security costs be sustainable--or 
at least partly sustainable--by the Afghan Government? How can the 
United States help the Afghan government grow its revenue and 
productive sectors to help pay for services, investment, and security? 
There are several options that should be more effectively implemented. 
Examples include long-term development of a mining sector that offers 
substantial benefits from Afghanistan's virtually untapped deposits of 
iron, copper, cobalt, gold, and critical industrial metals like 
lithium. In the shorter term, there should be an emphasis on artisanal 
projects and a shift from illegal artisanal mining to legal small-scale 
mining operations.
    The second is good governance. To maintain and build legitimacy, 
the central government and local institutions need to more adequately 
provide justice and service delivery to the population, including 
countering high levels of corruption. How much is sufficient? In 
addition, how much legitimacy, order, and justice should come from the 
central government as opposed to informal government in rural areas? A 
key part of governance will be relaxing Western notions that stability 
must come only from the top down. Power has generally come from the 
bottom up in Afghanistan, especially in Pashtun areas of the country, 
the focus of today's insurgency. It is striking that when considering 
Afghanistan's recent history, U.S. policymakers often turn to the 
failed military exploits of the British or Soviet Union. A stronger 
focus needs to be placed on understanding what factors have contributed 
to Afghanistan's stable periods. The Musahiban dynasty, which ruled 
Afghanistan from 1929 to 1978, was one of the most stable periods in 
modern Afghan history, partly because the Musahibans understood the 
importance of local power. While they established a strong army and 
competent government technocrats, they also allowed a number of rural 
areas to police their own villages and establish rule of law through 
local shuras (councils). This model has a range of lessons for today.
    The third factor is Pakistan. The failure to eliminate the 
insurgent sanctuary in Pakistan will cripple long-term efforts to 
stabilize Afghanistan. Every successful insurgency in Afghanistan since 
1979 has enjoyed a sanctuary in Pakistan and assistance from 
individuals within the Pakistan Government, including the Inter-
Services Intelligence Directorate (ISI). Today, the Taliban and other 
insurgent groups enjoy a sanctuary in the Federally Administered Tribal 
Areas and Baluchistan province. Insurgent groups regularly ship arms, 
ammunition, and supplies into Afghanistan from Pakistan. Many suicide 
bombers come from Afghan refugee camps located in Pakistan, and 
improvised explosive device components are often smuggled across the 
Afghanistan-Pakistan border and assembled at safe houses in such 
provinces as Kandahar. The leadership structure of most insurgent 
groups (such as Taliban, Hezb-i-Islami, and the Haqqani Network) is 
based in Pakistan. Finally, elements within the Pakistan Government, 
including the ISI, continue to provide support to such groups as the 
Taliban and Haqqani Network.
    Pakistan and the United States have failed to target the insurgent 
sanctuary in Pakistan, especially in Baluchistan province. Pakistan 
Army and Frontier Corps forces have conducted operations in Pakistan's 
tribal areas to the north, and the United States has conducted numerous 
drone strikes there. But relatively little has been done in 
Baluchistan. The United States and Pakistan must target Taliban leaders 
in Baluchistan. The most obvious way is to conduct clandestine raids to 
capture Taliban leaders in Baluchistan; large-scale military force 
would be unnecessary and counterproductive. Most Taliban are in or near 
cities like Quetta and Karachi. These operations should be led by 
police and intelligence agencies, much like Pakistani-American efforts 
to capture Khalid Shaikh Mohammed and other al-Qaeda operatives after 
September 11. In response, the United States could support Pakistan 
efforts to stabilize Baluchistan and defeat Baluch insurgents, a long-
term goal of the Pakistan Government.
    What was mentioned at the beginning of this testimony bears 
repeating. Despite a range of difficult issues, there are several ways 
that the United States can achieve its objectives in Afghanistan. The 
first is if al-Qaeda is destroyed in the Afghanistan-Pakistan region 
and no longer poses a serious threat to the U.S. homeland. The second 
is if the Taliban breaks ties with al-Qaeda and other groups that 
threaten the U.S. homeland. The third is if Afghan National Security 
Forces and local allies (such as Afghan Local Police) can sufficiently 
degrade the insurgency and prevent the return of the Taliban with 
minimal foreign assistance. At the moment, the United States should 
pursue all three means simultaneously--targeting al-Qaeda, negotiations 
with the Taliban, and Afghan-led counterinsurgency--until one of them, 
alone or in combination with the others, achieves adequate results.

    The Chairman. Very helpful. Thank you very much.
    Dr. Biddle.

STATEMENT OF STEPHEN BIDDLE, SENIOR FELLOW FOR DEFENSE POLICY, 
          COUNCIL ON FOREIGN RELATIONS, WASHINGTON, DC

    Dr. Biddle. I'd, also, like to thank the committee for the 
opportunity to speak to you on this important issue.
    I've long thought that Afghanistan is a close call on the 
analytical merits. If you're going to make the call in favor of 
waging the war, though, it seems to me, in order to realize the 
potential of securing the interests that we have at stake, I 
think we need to resolve some important ambiguities in the 
goals that we seek and the end states that we're after.
    In 2001, we sought very ambitious end states, but committed 
very little resources. And the result was unhappy. In 2011, our 
resources are much increased, but the end state that we're 
seeking is still very ambiguous. It's unclear what success 
would look like. And that lack of clarity makes it hard to make 
good near-term decisions across the range of policy issues that 
face us.
    My statement is an effort to reduce that ambiguity and try 
to describe in more detail what end state we actually require 
and what that implies for the definition of a reasonable 
success. The bottom line that that statement reaches is that 
our interests in Afghanistan are real, but narrow, and they 
focus on keeping Afghanistan from threatening the stability of 
an already unstable Pakistani neighbor. We tend to hear a lot 
about the ways in which Pakistani safe havens can destabilize 
Afghanistan. And they do. But, the bigger problem is the long 
run danger that if we should fail in Afghanistan, the result 
could be to tip an unstable Pakistan into collapse, with grave 
implications for United States security.
    This limited conception of our interests, however, implies 
a variety of different end states that could suffice to meet 
them. My statement goes into more detail than I'll attempt now. 
For now, I'll just note that at least two such less ambitious 
alternative conceptions of an acceptable end state might be: 
one, a decentralized version of today's very centralized, but 
democratic, 2001 model Afghan Government; alternatively, what, 
for lack of a better term, I'll call an ``internal mixed-
sovereignty system'' involving a series of bargains between 
Kabul and the periphery, in which local power brokers are 
granted a sphere of autonomy in exchange for the observance of 
several key redline restrictions on their behavior that are 
designed to cap the worst abuses of today's corruption while 
permitting lesser forms, and to limit the use of Afghanistan's 
territory as bases for terrorism or subversion.
    These limited goals and less ambitious end states, I 
believe, make success possible in the Clausewitzian sense of 
realizing the political aims for which we're waging the war. 
They do not, however, permit a radical reduction to very 
limited means. Even modest aims in Afghanistan are going to be 
very hard to attain. If we couple a realistically limited 
ambition with unrealistically limited means and resources, we 
run the risk of duplicating the 2001 mismatch between ends and 
means that got us into the fix that we've faced in recent 
years.
    And, in particular, I'm very skeptical that a small-
footprint counterterrorist strategy can secure our real 
interests, whether in Afghanistan or in Pakistan, for reasons 
that my statement treats in some detail, and which I would be 
happy to discuss in response to your questions.
    Thank you.
    [The prepared statement of Dr. Biddle follows:]

                Prepared Statement of Dr. Stephen Biddle

    The Afghanistan debate often focuses, understandably, on near-term 
concerns. Sound policies in the near term, however, require a longer 
term vision to guide them. And for now, several key components of a 
long-term vision for Afghanistan are absent or underdeveloped. What 
would success look like? What does the United States require to secure 
our central interests there? What relationship do we want with 
Afghanistan or its region after 2014, and what role will that require 
us to play then--or now?
    I argue below that core American interests in Afghanistan are real 
but narrow, and center on the security requirements of denying Afghan 
territory to terrorists as a base for attacking us or destabilizing 
Afghanistan's neighbors. These limited interests can be realized via a 
range of possible Afghan end states--we need not hold out for the 
highly ambitious political and economic development aims that the 
United States adopted in 2001. While desirable, these are not strictly 
necessary to meet our core requirements. But we cannot settle for just 
anything. There are limits on the acceptable that exclude outcomes such 
as partition or anarchy, and this limits the viability of approaches 
such as a counterterrorism (CT) strategy that would leave us unable to 
prevent a collapse of the current government. And it is hard to see any 
feasible, acceptable, Afghan political outcome that could function 
without sustained American and other international engagement. In the 
longer term, that engagement need not be primarily military (though 
some U.S. military presence ought not to be excluded as a possible 
means to the end of Afghan stability). But financial and technical 
assistance is likely to be needed on a sustained basis if Afghanistan 
is not again to suffer the fate that befell it the last time the West 
disengaged. To realize U.S. interests will require a long-term 
relationship with Afghanistan that accepts the need for continued 
assistance, albeit at levels far below today's, in the service not just 
of a better life for Afghans, but of a safer future for Americans.
    This longer term vision implies a number of near-term requirements. 
Among the more important of these is a clear strategy for governance 
reform; meaningful, measurable progress before 2014 in restraining 
government predation; and a negotiated agreement with the GIRoA that 
provides concrete reassurance that our allies will not be abandoned to 
their fate even as the United States draws down.
    To develop this argument I first identify and prioritize America's 
underlying interests in Afghanistan. I then discuss what these imply 
for acceptable end states there, and what this in turn implies for the 
required American role to sustain a stable Afghanistan that can meet 
our interests in the longer term. I then turn to some consequences of 
this long-term analysis for several near-term policy issues--especially 
the utility of permanent U.S. bases in Afghanistan as a part of a 
Strategic Partnership Agreement with the GIRoA, the attractiveness of 
substituting a counterterrorism (CT) strategy for today's 
counterinsurgency (COIN) approach in light of bin Laden's death, the 
attractiveness of negotiated settlement as a means of achieving an 
acceptable end state, and the appropriate sequencing and prioritization 
of security improvement and governance reform.

              U.S. INTERESTS IN AFGHANISTAN AND SOUTH ASIA

    Of course the United States has many interests at stake in 
Afghanistan and its region. From the emerging great power of India to 
the east, to the destabilizing influence of Iran to the west, south 
Asia and its environs pose a range of economic, humanitarian, and 
security concerns for the United States. For Afghanistan itself, a 
variety of American aspirations for human rights, democracy, and 
economic development are at stake.
    But these are not of equal importance. In fact, the central U.S. 
interest in the region is its nearly unique potential for terrorist 
violence against Americans. This threat emanates chiefly from Pakistan. 
Its combination of a deepening internal insurgency, a growing nuclear 
arsenal, a diverse range of Islamist militant groups including the 
global headquarters of al-Qaeda, a weak and divided government, deep 
sources of internal instability deriving from a growing population, a 
stagnant economy, and great asymmetries between wealth and poverty 
together give Pakistan a well deserved reputation as ``the most 
dangerous place in the world,'' as Imtiaz Gul put it.\1\ By many 
measures Pakistan's ongoing civil war is not going well for the 
government. If Pakistan eventually loses this war, the state collapses, 
the security services splinter, and the nuclear arsenal breaches 
containment, this would provide one of the few plausible scenarios in 
which al-Qaeda or its allies could obtain a usable nuclear weapon. 
Terrorists may gain bases in many ill-governed spaces around the world, 
including Afghanistan. But only in Pakistan do they pose a serious 
threat of overturning a nuclear weapon state and gaining access to its 
arsenal. This is a unique challenge of special magnitude.
---------------------------------------------------------------------------
    \1\ Imtiaz Gul, ``The Most Dangerous Place: Pakistan's Lawless 
Frontier'' (New York: Viking, 2010).
---------------------------------------------------------------------------
    In this context, Afghanistan is important to the United States 
chiefly in terms of its potential effect on its unstable neighbor 
across the Durand Line. Pakistan is not only a country of unusual peril 
for the United States, it is also one where we have unusually limited 
direct leverage to reduce the danger. U.S. aid to Pakistan can help at 
the margin, but it is unlikely to be decisive in defeating Pakistan's 
insurgency. Our ability to go beyond financial aid to training or 
military assistance is limited by our extreme unpopularity among 
Pakistanis. We cannot realistically expect to remove the threat by 
drone attacks on militants, which can eliminate key leaders and 
suppress terrorist activity if well designed, but are unlikely to 
defeat whole organizations of hardened militants and guerillas in the 
absence of a far more effective ground war than the Pakistanis have yet 
been able to mount. With our ability to make a bad situation much 
better so limited, it is especially important to avoid making it any 
worse than it needs to be.
    And failure in Afghanistan could make the prognosis in Pakistan 
much worse. All states worry about instability on their borders. For a 
state as internally threatened as Pakistan, this danger is far greater 
than most. The Taliban are a transnational Pashtun movement that is 
active on either side of the Durand Line and sympathetic to other 
Pakistani Islamist insurgents. By many accounts, their links to anti-
Pakistani militants are growing as these groups expand and seek allies 
to extend their reach and power.\2\ The Afghan Taliban presence within 
Pakistan is thus already an important threat to the regime in 
Islamabad.\3\ But if Afghanistan descended into chaos, the spillover 
effects would be far worse. A combination of refugee flows, safe haven 
in an anarchic Afghanistan beyond Pakistani state control, and the 
calling in of IOUs by anti-Pakistani militants who had assisted the 
Afghan Taliban in part to secure the latter's support against Islamabad 
could eventually be enough to tip an already unstable Pakistan into 
collapse. Much has been made of the threat Pakistani base camps pose to 
Afghan Government stability, but this danger works both ways: 
instability in Afghanistan poses a serious threat to the civil 
government in Pakistan, and the latter is a greater threat to U.S. 
interests than the former.
---------------------------------------------------------------------------
    \2\ See, e.g., Bill Roggio, ``Pakistani Taliban Enlist 6 Local 
Groups in Wana Region of South Waziristan,'' The Long War Journal, 
November 8, 2010, accessed May 9, 2011. http://www.longwarjournal.org/
archives/2010/11/pakistani_taliban_en.php; Shuja Nawaz, ``The Perfect 
Storm in Af-Pak,'' The National Interest, May 9, 2011, accessed May 9, 
2011. http://nationalinterest.org/commentary/the-perfect-storm-af-pak-
5277?page=1; remarks of Daniel Benjamin, U.S. Department of State, at 
http://www.state.gov/s/ct/rls/rm/2011/161895.htm.
    \3\ Albeit one that at least some Pakistanis are willing to 
tolerate for now as a hedge against the prospect of U.S. failure in 
Afghanistan (more on which below).
---------------------------------------------------------------------------
    These security interests are real but they are not unlimited. 
Afghanistan's potential effect on its neighbor is genuine, but 
indirect. Nor does failure in Afghanistan predetermine failure in 
Pakistan: if Pakistan puts its own house in order and marshals the full 
resources of the state behind its own counterinsurgency effort then it 
could survive in spite of chaos on its border. A series of uncertain 
events would have to break in unfavorable ways for an Afghan failure to 
yield a nuclear-armed terror threat from south Asian militants. The 
consequences for our own security if this chain of events did unfold 
would be radically grave, but the likelihood of this should not be 
overestimated. Americans have invested major resources to combat 
unlikely but grave threats in the past (the cold war nuclear arms race 
had much the same quality), but that does not mean we should always do 
so, or that it necessarily makes sense to do so here. Reasonable people 
can thus differ on whether our interests in Afghanistan warrant 
American warmaking to secure, or whether they merit the scale of effort 
we are now expending.
    But of the various interests we have at stake in south Asia, its 
unique terrorist potential is the only one that might merit conducting 
or continuing a war. And if one judges that the war is worth waging, 
then it makes sense to prioritize an acceptable outcome to that war 
above other economic or political interests in the region.

     DEFINING ``SUCCESS'' IN AFGHANISTAN: END STATES THAT CAN MEET
                           OUR CORE INTERESTS

    Clausewitz taught that war is a means to political ends, which 
implies that the standard for measuring success in war should be 
whether the outcome secures the political interests at stake. If our 
interest in the conflict is partly that Afghanistan not again become a 
base for terrorists to attack us directly, but largely that Afghanistan 
not become a base for destabilizing Pakistan, then the right definition 
for success in the war is that it yields an Afghanistan which averts 
this. Of course there is a much wider set of ambitions America would 
seek for Afghanistan, as it would for any country. Americans would like 
Afghanistan to be ruled in accordance with the will of the governed, 
for its people to be prosperous, and for minority and women's rights to 
be respected. But the vital national security interests for which the 
waging of war might normally be justified are narrower, and focus on 
denying Afghanistan as a base for transnational terrorism and 
subversion.
    Our original aims in Afghanistan were much more ambitious. The 2001 
Bonn Agreement committed the United States to pursue a remarkably 
centralized democratic state with almost all meaningful governmental 
functions held by the national government in Kabul. This design would 
have minimized the danger of warlordism, enabled centralized protection 
of human rights even in Afghanistan's conservative south, and empowered 
a modernizing center with the authority to develop the country through 
rational investment in national economic infrastructure. If this agenda 
could be realized it would be an ideal outcome. But 10 years into a 
costly and destructive war, its very ambition has put it effectively 
beyond our reach.
    This scale of ambition, moreover, is unnecessary to secure our core 
interests. A variety of less centralized, and possibly less democratic, 
alternative end states could still provide the critical requirement of 
an Afghanistan that does not threaten us or its neighbors. Two such 
alternatives are decentralized democracy, and internal mixed 
sovereignty.\4\
---------------------------------------------------------------------------
    \4\ For a more detailed discussion, see Stephen Biddle, Fotini 
Christia, and J Alexander Thier, ``Defining Success in Afghanistan: 
What Can the United States Accept?'' Foreign Affairs, Vol. 89, No. 4 
(July-August 2010), pp. 48-60.
---------------------------------------------------------------------------
Decentralized Democracy
    Decentralized democracy would delegate a variety of authorities now 
held in Kabul to the periphery. This would surely include the power to 
make and execute budgets, to utilize traditional alternatives to 
centralized justice systems for some offenses, to elect or approve key 
officials who are now appointed by Kabul, and could presumably extend 
to local revenue collection or regulatory authority.
    Greater local autonomy would promote buy-in from populations who 
distrust distant Kabul, and would exploit a preexisting base of 
legitimacy and identity that's stronger at the local than the national 
level. Foreign policy and internal security, however, would remain with 
the central government, which would prevent more autonomous localities 
from using their territories to support international terrorism or 
insurrection against the State.
    Accountability would be obtained chiefly via transparency, and 
electoral or legal sanction: as with centralized democracy, the will of 
the governed would be the ultima ratio, and governance would be 
designed to promote the people's ability to detect misbehavior and 
punish it by voting out miscreants in free and fair elections. To the 
extent that provincial and district governorships acquire significant 
additional powers, these offices would need to be elected, or subject 
to tight oversight by elected councils empowered to enact meaningful 
sanctions. And watchdog provisions would be needed to ensure that these 
elected bodies have the information they need to enforce the public 
will. Other matters, such as civil disputes and minor criminal cases, 
could continue to be handled by the traditional justice system if local 
communities prefer.
    This option should be acceptable to the United States. Its core 
reliance on democracy and transparency is consistent with basic 
American values and ambitions in the international system. Localities 
with freedom to reflect local preferences may adopt social policies 
that many Americans would see as regressive, but the opposite could 
also occur, with some places implementing more moderate norms than 
those favored by a national majority. By promoting local acceptance of 
the Government of the Islamic Republic of Afghanistan (GIRoA) by 
Afghans, this option removes much of the casus belli for insurgency. 
And it preserves a central state with the power and incentive to deny 
the use of Afghan soil for attacking the United States or destabilizing 
Pakistan, thus securing the critical minimum U.S. security stakes in 
the conflict.
    On balance, decentralized democracy should offer a significant 
improvement in the odds of success--because it exploits the greater 
natural legitimacy of local authority in Afghanistan and the greater 
availability of existing resources at the local level. Overall, though 
it offers no easy guarantee of success, decentralized democracy 
promises a real prospect of an acceptable outcome if the international 
community is willing to pay the price in the form of sustained 
counterinsurgency, major assistance in Afghan governance, and a 
vigorous anticorruption campaign.

Internal Mixed Sovereignty
    An internal mixed sovereignty model would decentralize even further 
by allowing localities to adopt any system of government as long as 
they respect a handful of constraints imposed by the center. Like 
decentralized democracy, it would delegate many powers now held in 
Kabul to the provincial or district level. It differs in granting local 
authorities the additional power to rule themselves without 
transparency or electoral sanction as long as three key ``redlines'' 
are not crossed by the local government.
    The first such redline would forbid local authorities from allowing 
their territories to be used in ways that violate the foreign policy of 
the state--and especially, it would ban terrorist or insurgent base 
camps that could threaten Pakistan, the United States, or its other 
allies. The second would bar local authorities from infringing on the 
rights of neighboring localities (such as seizing assets across 
provincial or district boundaries, or diverting water resources 
upstream in violation of covenants). The third would discourage 
localities from generating massive illicit revenues through land grabs, 
large-scale theft of international customs, widespread narcotics 
trafficking, or exploitation of state-owned natural resources without 
license. Beyond these limited restrictions, local authorities would be 
free to run their localities as they see fit, whether this reflected 
the expressed will of the governed or not, and to engage in lower level 
corruption without federal sanction. Central authorities in Kabul would 
thus retain absolute control over foreign policy and the ability to 
make war, limited authority over interprovincial commerce, and the 
ability to prohibit land grabs and enforce narcotics, customs, and 
mining laws, but almost all other powers and authorities would be ceded 
to the local government, including the power to rule without 
interference from the center on any matter other than the observance of 
explicit redlines.
    This freedom to select the manner of government without 
interference as long as redlines are not crossed would potentially 
enable local strongmen to run provinces and profit from corruption. The 
absolute requirement that certain behaviors are off limits, however, 
restricts true sovereignty by ceding to the center some sacrosanct 
powers--especially, the control of foreign policy and the ability to 
make war internationally. Hence sovereignty is mixed in this variant to 
a much greater degree than in the other options explored above: many, 
but not all, of the ordinary powers of sovereign governance would be 
delegated to the provincial or district level.
    This option would signal a much more serious break with the overall 
direction of the Afghan state as conceived in 2001. In many ways, it 
would be an acknowledgement of de facto arrangements since 2001 and 
acceptance of a delimited form of strong-man rule in various regions of 
the country. Many of the governors and other local officials appointed 
by Karzai have ruled not by virtue of legal authorities bestowed upon 
them by Kabul, but rather through their own local security and economic 
power bases operating outside the law but with the tacit acceptance of 
Kabul.
    In areas such as Balkh and Nangarhar, this has resulted in relative 
security and drastic reduction of poppy cultivation. ``Warlord 
governance'' in such places has found a relatively stable equilibrium 
in which provincial authorities profit from rent-seeking behavior but 
keep their predation within limits so as to avert a mutually costly 
crackdown from Kabul.
    In other areas, however, strongman rule has undermined stability. 
In Helmand for example, several years of bad governance that excluded 
and alienated significant population groups fueled insurgency. Even in 
the north, tensions have been stoked due to ethnically targeted 
violence and criminal impunity that marked strongman rule there. To be 
stable, mixed sovereignty thus cannot amount to partition by another 
name under local strongmen who can do whatever they wish in private 
fiefdoms--redline restrictions that preclude the excesses that fuel 
insurgency are essential.
    The attractions of this option are obvious: it is less demanding of 
rapid institution-building, and offers a closer fit to Afghanistan's 
current environment.
    However, this option carries risks that make it less consistent 
with U.S. interests than the previous two. First, governors would have 
considerable freedom to adopt regressive social policy and abuse human 
rights. The degree of corruption would also be high--indeed, the 
opportunity for corruption is an essential part of the system's 
attraction for the prospective governors. Again, this is a limited 
departure from current practice, but would require acknowledging that 
only moderate change is coming--which in turn may deepen public 
grievances or promote renewed insurgency in the future if corruption is 
allowed to exceed public tolerance. There would also be a constant 
threat of instability as powerful governors periodically test the 
waters to see what they can get away with. The central government would 
thus presumably be called upon for periodic enforcement actions that 
could require violence if the system is to be kept within its limits of 
adaptation and tolerance.
    This model could nevertheless be viable and meet minimum U.S. 
security interests, however, if the three key redlines can be enforced. 
The model offers two key means of enforcement, one being a stick, the 
other a carrot. The stick is the threat of military punitive action by 
Kabul to sanction governors in violation, or to destroy base camps when 
discovered (or both). The carrot is Kabul's control over foreign aid, 
and ability to direct it to some provinces but not others, as well as 
the profit potential from local autonomy if the rules are respected. 
The United States would retain influence through its control of foreign 
aid and its deep engagement with the Afghan National Security Forces 
(ANSF); this influence can be used as leverage to keep local 
authorities' behavior within acceptable bounds.
    Afghanistan itself was ruled under a similar model for much of the 
20th century: the Musahiban Dynasty lasted for five decades as a 
nominally absolute monarchy with an ostensibly uniform national code 
but in which the periphery held a certain degree of autonomy with a 
modest state bureaucracy and a centrally controlled army and police 
force serving mainly to enforce a few key royal prerogatives. The rule 
of law was generally locally administered and some Pashtun tribes in 
the south and east were exempted from military service. Tax revenues 
were primarily levied from foreign trade, foreign aid (starting in the 
late 1950s), and sales of natural gas to the Soviet Union (starting in 
the late 1960s) rather than from rural agriculture and livestock. Kabul 
sought to leverage its international links for resources rather than 
extracting them from local power centers. But when local leaders were 
out of line, the center would forcibly intervene to police them. Over 
time, as government capacity and resources increased, the state was 
gradually able to extend its writ.
    The mixed sovereignty model, however, faces implementation 
challenges all the same--especially the need to rein in the worst 
excesses of today's malign power brokers, and the need to constrain 
illicit economic activity. Without regulation, unrestrained abuse of 
power on today's scale is a major contributor to the insurgency. If 
mixed sovereignty is merely a gloss for more of the same, it will fail. 
The model requires a bargain in which power brokers refrain from 
destabilizing, grand-mal abuses in exchange for a share of foreign 
assistance and local revenues, and freedom from federal enforcement and 
sanction. Today's strongmen, by contrast, enjoy nearly complete freedom 
to exploit with little risk of sanction; even a mixed sovereignty model 
will thus require coercive effort to compel acceptance of its half-a-
loaf relative to today's entire bakery for the corrupt. And for aid 
incentives to be meaningful, they must comprise a meaningful fraction 
of total economic activity. Today, the narcotics trade, for example, is 
so large as to threaten the power of outside aid as an incentive for 
compliance. It will require important effort to shrink narcotics 
trafficking, illicit natural resource exploitation, and other theft of 
public resources to a manageable scale.
    Other significant drawbacks are its potential for instability and 
its consignment of many Afghans to nondemocratic rule. It would 
backtrack on nearly 10 years of U.S. promises for democracy, rule of 
law, and basic rights for women and minorities, with costs for U.S. 
prestige in addition to its effects on innocent Afghans. And it would 
require constant attention to sustain. Properly managed, the internal 
power balancing mechanisms of this approach keep it within bounds. But 
this is a dynamic process requiring continuous, potentially costly 
management; without this, it could slip into unconstrained warlordism 
and civil warfare. A workable mixed sovereignty model is thus not a 
recipe for Western disengagement: not only will it require a continued 
aid flow, but a sustained political and military engagement will be 
needed to help maintain internal equilibrium and to promote social 
justice where possible.
    This need for external engagement highlights the importance of 
regional diplomacy. International consensus-building on Afghanistan is 
critical for stability under any approach. But the dynamic quality of 
internal mixed sovereignty and the particular weakness of its central 
government make it a potential magnet for foreign interference and a 
source of regional instability if Afghanistan's security is not 
embedded in a workable regional security framework with real buy-in 
from its neighbors.

Unacceptable Others
    Many other outcomes are possible--but fail to meet core U.S. 
security requirements. Partition, whether de facto or de jure, would 
involve the country's breakup into ethnic substates. The likeliest such 
split would divide the Pashtun south from the largely Tajik, Uzbek, and 
Hazara north and west. A poorly designed reconciliation deal with 
inadequate safeguards on Taliban authority in the south could closely 
approximate a form of de facto partition along these lines. Any such 
partition could easily yield safe havens for cross-border terrorism and 
insurgency, as seen elsewhere in such cases as Iraqi Kurdistan's use by 
the PKK to attack Turkey, or the use of Congolese border havens to 
attack neighboring Rwanda. Regional proxy battles, and internal 
competition for control of Kabul and key border areas add further 
incentives for instability to any partition scheme.
    Alternatively, Afghanistan could return to the atomized civil 
warfare of the 1990s. An anarchic Afghanistan would resemble the 
conditions that led to the Taliban takeover and basing of al-Qaeda in 
Afghanistan in the 1990s, or present-day Somalia, where lawlessness has 
promoted al-Shabaab, a violent, al-Qaeda supported Islamist movement.
    In principle, Afghanistan could become a centralized dictatorship, 
whether by the Taliban or someone else. But any real consolidation of 
power in the hands of a single strongman is a highly unlikely scenario 
in post-2001 Afghanistan where political, military, and economic power 
is dispersed among numerous power brokers backed by competing regional 
interests. In this environment, any prospective dictator, whether pro- 
or anti-U.S., would have great difficulty preventing a subsequent 
descent into civil war. A coup d'etat or other antidemocratic power 
grab is entirely possible, but is very unlikely to yield stability in 
its wake.

           THE U.S. ROLE IN A STABLE, ACCEPTABLE AFGHANISTAN

    What do these end states imply for the role the United States would 
have to play in order to obtain them and sustain them over time? Today, 
the U.S. role in Afghanistan is ubiquitous and central. If U.S. troops, 
money, and advisers were withdrawn the Karzai government would be 
unlikely to survive for long. Moreover, this view is widely held among 
Afghans, Pakistanis, and the Taliban--it is not just an American 
academic perception. Unfortunately, many in the region now believe that 
this U.S. role, though necessary, is unlikely to be sustained until a 
stable outcome is obtained, and that this will lead to an eventual 
collapse of the government and either a Taliban takeover or an extended 
civil war. Some have argued that this perception encourages the enemy 
to hunker down and wait us out. A bigger problem, however, is its 
effect on our allies: it encourages them to hedge their bets in ways 
that make success less likely.\5\
---------------------------------------------------------------------------
    \5\ Avoidance of moral hazard requires a balance between a credible 
promise to support one's ally if they do what is necessary themselves 
and a credible threat to sanction them if they do not. At the moment, 
the chief problem in Afghanistan is the lack of a credible promise, as 
can be observed in the scale of hedging behavior ongoing in the region. 
But success will require credibility in both directions: reassurance 
alone, without conditionality and a believable threat of sanction in 
the absence of reform, is insufficient. It is worth noting that the 
threat of withdrawal is not the only, or the best, form of sanction--in 
fact, any of the manifold forms of U.S. aid and assistance can be a 
source of leverage if made conditional on specific Afghan reforms.
---------------------------------------------------------------------------
    For Afghans, a critical example of this hedging is corruption and 
government predation. Corruption is common in the developing world, but 
not on Afghanistan's scale: Somalia is the only country on the planet 
that exceeds Afghanistan on Transparency International's corruption 
index.\6\ This is not some deep product of ancient cultural norms or 
tribal social structure--the scale of this problem is the result of a 
recent, calculated response to the expectation that the government will 
soon fall.\7\ Since the United States handed the war over to NATO in 
2003, many Afghan officials and local power brokers came to the 
conclusion that they would be abandoned and that the government would 
then fall. This impression was reinforced by the President's 
announcement of a July 2011 date for the beginning of U.S. troop 
withdrawals, but the underlying perception was already widespread by 
the time the 2011 date was unveiled. This judgment that the government 
would fall and the system would collapse provides a powerful incentive 
for predation. On the one hand, it makes patient, long-term investment 
in an honest, democratic future very risky: the system could easily 
collapse before such patience bears fruit, leaving the honest with 
nothing. At the same time it encourages the powerful to steal now while 
they still can: if the gravy train will end in 3 years, that leaves 
only a short time in which to amass enough wealth to build a 
comfortable exile abroad for the aftermath. These dilemmas make it very 
difficult to combat corruption and predation as long as Afghans expect 
abandonment and collapse. And no stable, acceptable Afghan end state is 
possible with today's scale of corruption: even internal mixed 
sovereignty requires an enforceable cap on the take. Without the 
ability to contain predation, success is impossible; bet hedging by 
Afghans makes predation extremely hard to contain.
---------------------------------------------------------------------------
    \6\ ``Corruption Perceptions Index 2010'' (Berlin, Germany: 
Transparency International, 2010).
    \7\ Plus, of course, the scale of foreign assistance and ill-
managed contract money flowing into the country after 2001 and 
especially after NATO began reinforcing its military presence after 
2005, which provided a rich target array on which corrupt power brokers 
could prey, with little real oversight to constrain the predation.
---------------------------------------------------------------------------
    For the Pakistanis, such hedging includes tacit support for the 
Afghan Taliban, whom the Pakistanis rely upon to ensure a friendly 
government in Kabul if the United States leaves too soon. An Indian-
aligned Afghan Government would be a disaster in most Pakistanis' eyes; 
U.S. success might build a pluralist GIRoA that could prevent the 
country from becoming an Indian pawn, but U.S. failure would leave 
Pakistan badly exposed, and to many Pakistanis the latter looks more 
likely than the former. Hence they protect the Haqqanis, the Quetta 
Shura, and others. Most counterinsurgency theorists see outside havens 
as a major advantage for insurgents; as long as the Pakistanis protect 
the Afghan Taliban as a hedge it will be very difficult to end the 
violence.
    We can try to reduce this hedging with pressure, oversight, or 
persuasion, and indeed we have tried all three for years now (albeit 
with varying seriousness). But as long as the underlying perception in 
the region remains the expectation of abandonment, there will be a 
strong rational incentive for self-interested actors to hedge via 
Afghan predation and Pakistani support for the Afghan Taliban. And this 
will make it very hard for the United States to change these behaviors.
    This leaves us with a dilemma. We cannot sustain today's role 
forever. But the more emphasis we put on drawing down our presence, the 
more we fuel the perception that we'll leave too soon, the more bet-
hedging we can expect as a result, and the lower the odds of success.
    The administration has eased this dilemma somewhat by shifting its 
emphasis from the 2011 drawdown onset to the 2014 target for transition 
to Afghan lead security responsibility. This helps clarify that the 
United States is not in the midst of a precipitate rush to the exit, 
which eases the pressure on South Asians to hedge. A Strategic 
Partnership Agreement that codifies a longer term U.S. relationship 
with and role in Afghanistan can also help a great deal (more on this 
below).
    Also necessary, however, is greater clarity on our long-term 
objectives and the end states we can accept. Today's ambiguity promotes 
confusion in the region, undermines the credibility of the commitments 
we are willing to make, and encourages pessimists to believe that our 
goals are misaligned with our willingness to pay and that we will 
eventually give up. Only if we can identify an end state whose resource 
requirements are bearable can we possibly commit ourselves credibly to 
provide the resources needed. And if we cannot make a credible 
commitment, we will promote hedging strategies that make any acceptable 
outcome nearly impossible.
    What U.S. role would the end states described above require? Our 
original goal of a radically centralized democracy was so ambitious 
that it would now require an impractical U.S. investment--this is 
effectively beyond reach.
    Decentralized democracy is less demanding, but would still require 
major exertions in population security and governance reform. It is 
difficult to be specific without a troop-to-task analysis that would be 
beyond my scope here. But it seems reasonable to expect that the U.S. 
resource requirements would be substantial, and would require a major 
U.S. troop presence for years to come.
    Internal mixed sovereignty is less attractive but also less 
demanding, at least by degree. By accepting but regulating the existing 
practice of strongman rule in many parts of the country, this model 
would reduce the scale of governance transformation required and would 
be closer to historical experience. And strongly enforcing a restricted 
set of redlines against warlords and other power brokers would give 
them incentives to moderate the destructive excesses that today drive 
many Afghans toward the Taliban. A mixed sovereignty model would be 
less dependent on administrative transparency and efficiency, and hence 
less demanding of international mentoring, oversight, monitoring, and 
technical assistance. Even internal mixed sovereignty, however, would 
require hard fighting to secure. And it cannot succeed without a major 
effort to rein in the scale of today's predatory misgovernance and cap 
its virulence.
    Internal mixed sovereignty would thus probably be less costly to 
obtain than decentralized democracy. But it could require a greater 
U.S. investment to sustain than a decentralized democracy would.
    It is hard to see any stable Afghan outcome without some kind of 
sustained U.S. role. Afghanistan was at peace for most of the 20th 
century, but it was a major recipient of international economic aid 
throughout that period, and given its limited revenue base for the 
foreseeable future it will surely require some degree of continued aid 
to be viable in the 21st.\8\ A decentralized democracy would need 
continuing technical and financial assistance in governance and 
development, but the natural checks and balances it would feature would 
build in an important measure of stability. Such a system would be 
designed to enable local shuras or councils to oversee public 
expenditure, and popular dissatisfaction with the Taliban even in the 
Pashtun south could be expected to restrain local officials from the 
ideological extremes of the previous Taliban regime, or from empowering 
militants to engage in international terrorism. This would give Afghans 
with a natural incentive to oppose militancy the political power to 
constrain it.
---------------------------------------------------------------------------
    \8\ From 1960-69, Afghanistan received, on average, the equivalent 
of $247 million/year in international aid, in 2011 dollars; from 1970-
79 it received an average of $269 million/year: OECD (http://
stats.oecd.org/qwids/), assuming inflation figures taken from the U.S. 
Bureau of Labor Statistics: http://www.bls.gov/data/
inflation_calculator.htm. By 1973, foreign grants and loans provided 
two-thirds of annual Afghan Government revenue: Thomas Barfield, 
Afghanistan: ``A Political and Cultural History'' (Princeton: Princeton 
University Press, 2010), p. 205.
---------------------------------------------------------------------------
    Internal mixed sovereignty, by contrast, has weaker natural 
balancing mechanisms. In fact it should be assumed that Afghan power 
brokers will regularly test the limits of the bargains they have 
reached with Kabul, especially in the system's early years. Vigorous 
enforcement would thus be necessary to prevent predation from returning 
to today's intolerable levels. The sticks and carrots described above 
could, in principle, be sufficient to persuade profit-motivated 
strongmen to stay within their limits as long as violation does, in 
fact, yield sanctions painful enough to be bad for business, as it 
were. But this is a dynamic process requiring continuous, potentially 
costly management; without this, it could slip into unconstrained 
warlordism and civil warfare. And this management will require U.S. 
assistance for the foreseeable future--partly to provide (or catalyze) 
the aid flows needed as carrots, partly to provide the training and 
technical assistance needed for the ANSF to suffice as a stick, partly 
to help monitor compliance in the periphery, and partly to encourage 
Kabul to use both the carrots and the sticks energetically. A workable 
mixed sovereignty model is thus not a recipe for Western disengagement. 
It might enable a somewhat quicker U.S. military drawdown in the near 
term than other options, but it could demand a greater and more complex 
long-term economic and political engagement to sustain than other 
options would.

     IMPLICATIONS: THE UTILITY OF A STRATEGIC PARTNERSHIP AGREEMENT
                             WITH THE GIROA

    This assessment of long run U.S. interests and potential end states 
for Afghanistan poses a variety of implications for near-term policy 
questions. Among them is the utility of a Strategic Partnership 
Agreement with the GIRoA. The United States is now conducting 
negotiations with the Karzai government over such an agreement to frame 
the long-term relationship between the two states. A detailed analysis 
of preferred terms or negotiating positions in these talks is beyond my 
scope here. But the discussion above implies several important roles 
such an agreement should play, and some considerations for critical 
sub-issues.
    In particular, it would be extremely useful if these talks could 
assure South Asians that a post-2014 U.S. troop drawdown will not leave 
Afghanistan abandoned and at the mercy of an empowered Taliban. As I 
argue above, many in the region (Pakistanis, Taliban, and other 
Islamist militants as well as loyal Afghans) now believe the United 
States and other foreign powers will leave Afghanistan before defeating 
the Taliban, and that this will lead to an eventual collapse of the 
government and either a Taliban takeover or an extended civil war. The 
hedging incentives this creates are deeply problematic; success 
probably requires some change in this widespread expectation of 
abandonment, and greater clarity as to America's long-term intentions 
for Afghanistan and the region. A more consistent, more explicit 
communications strategy would help--many Afghan officials are now 
confused about American intentions and objectives, and this confusion 
is aggravated by conflicting U.S. statements about our commitment to 
counterinsurgency or other state-support policies. But in the final 
analysis a real change in regional perceptions will probably require 
actions rather than just words.
    One such action would be for the actual U.S. drawdown rate to be 
slow rather than fast. Many Afghans, for example, misinterpreted the 
President's 2009 West Point speech to mean that there would be no U.S. 
troops remaining in Afghanistan by 2012. This perception was remarkably 
stubborn; in a 2010 visit to Kabul, I found even members of 
Afghanistan's Parliament and analysts from Afghan think tanks convinced 
that we would be gone by 2012. For some, only the actual observation 
that American troops remain will convince them that they are not on the 
brink of abandonment and collapse.
    Another helpful action, however, would be to conclude a Strategic 
Partnership Agreement that committed the United States to a long-term 
role that could combat this perception of looming exit. This need not 
take the form of a commitment to permanent bases or a permanent 
military presence, though it could. But it would need to make it clear 
that the United States does not intend to repeat its policies of the 
1990s, in which we left Afghanistan to its own devices after the Soviet 
withdrawal and did little to avert open civil warfare. A strong 
agreement with an explicit commitment to continued U.S. engagement 
could go a long way toward reducing the incentives to hedge bets that 
are now so corrosive in the region--and this in turn could 
substantially improve the prospects for near-term governance reform in 
Afghanistan or realignment of Pakistani policy toward the Afghan 
Taliban.
    Should this agreement provide for permanent U.S. bases or a 
permanent U.S. military presence? While detailed prescription for 
negotiations is beyond my scope, some points are clear. First, given 
our interests in the region, the primary criterion for this choice 
should be stabilizing Afghanistan, not broader concerns with power 
projection or the conduct of counterterrorist missions beyond 
Afghanistan's borders. I treat the viability of an Afghan-based CT 
strategy below. For now, though, it is worth noting that Afghanistan is 
far from an ideal base for regional power projection. As a remote, 
landlocked nation with mountainous borders and unreliable and/or 
unstable neighbors astride the natural lines of communication to 
seaports, Afghanistan is a highly imperfect base for projecting power 
elsewhere. As the bin Laden raid showed, it can be useful, especially 
for small-scale raids of short duration, but the real issue is not 
whether it has some advantage under some circumstances but whether the 
difference between Afghan bases and the next-best alternative is large 
or small under normal conditions. Even for the bin Laden raid, 
alternatives were under active consideration that would have involved 
air attacks from bases far from Afghanistan; many, apparently including 
the Secretary of Defense, actually preferred these to a plan that 
relied on SEALs flown from Jalalabad. For most purposes in most 
scenarios, there are alternatives to Afghan bases for power projection 
missions--whether these be bomber strikes from the continental United 
States; missions flown from regional bases in places such as Diego 
Garcia or elsewhere; carrier-based aviation; or cruise missiles 
launched from submarines or other naval platforms offshore. And given 
the difficulties in maintaining logistical support for sustained action 
from Afghan bases, these alternatives are likely to look reasonably 
competitive for many contingencies. Afghanistan may be better for some 
purposes at some times, but it is unlikely to be so much better as to 
be indispensible as a base.
    Second, and related, permanent bases should be seen as negotiable 
in the talks. An important argument in favor of permanent bases is 
their ability to reassure nervous Afghans. But some Afghans see 
permanent U.S. bases as intrusion and interference, or as an 
infringement on Afghan sovereignty. If the net result of an insistence 
on permanent bases is to inflame anti-American sentiment in Afghanistan 
and undermine Afghan support for the war, this downside would outweigh 
any plausible military benefit to the United States--and it could end 
up impeding, rather than advancing, the underlying logic of 
reassurance. The Taliban, for their part, will surely oppose any 
permanent foreign military presence and will present this as an 
obstacle to negotiated settlement of the war. Reconciliation 
negotiations pose complex challenges and may or may not prove fruitful 
(more on this below). But if they otherwise show promise, the cause of 
stability in south Asia could be better served by removing a barrier to 
negotiating progress than by retaining a power projection platform that 
is little superior to its alternatives. It is thus a mistake to view 
permanent U.S. bases as a redline requirement that must be preserved in 
any negotiations, whether with the GIRoA or with the Taliban.
    The chief point is thus that permanent basing is a means, not an 
end. The end is a stable south Asia via a stable Afghanistan, and the 
primary role of any Strategic Partnership Agreement should be to serve 
that end by reassuring Afghans and others that they will not be 
abandoned. If in the course of the negotiations over the agreement such 
bases look useful as tools of reassurance, they should be offered. But 
they are not ends in themselves of any superordinate importance.

           IMPLICATIONS: COUNTERTERRORISM, COUNTERINSURGENCY,
                       AND THE DEATH OF BIN LADEN

    Many have proposed the the United States shift from a 
counterinsurgency (COIN) strategy to one based on counterterrorism 
(CT). Whereas COIN is focused on sustaining the host government by 
securing its population, CT is focused on removing threats to the U.S. 
homeland by killing or capturing terrorists and their leaders. And 
whereas COIN is labor intensive and expensive in lives and dollars, CT 
can in principle be much cheaper, relying on small numbers of drone 
strikes or special forces raids without the multibrigade, long-term 
ground commitments required for COIN. If our primary interest in 
Afghanistan is in fact to reduce the terrorist threat to America, would 
it not make more sense to pursue this directly and cheaply via CT 
rather than indirectly and expensively via COIN?
    The answer is no, and the reason is that CT depends on the host 
government cooperation that COIN is designed to secure. The binding 
constraint on CT effectiveness is normally intelligence on the targets' 
whereabouts. This intelligence normally requires access on the ground. 
The raid that killed bin Laden, for example, depended on information 
gained from patient, long-term surveillance of the compound by human 
agents operating from a safe house in Abbottabad, and elsewhere in the 
country.\9\ The Secretary of State has reported that we also relied 
upon cooperation from Pakistani intelligence, based on their own human 
source networks on the ground.\10\ This access on the ground is vastly 
harder if the local government is actively hostile and seeks to exclude 
us. Moreover, our ability to use drones or other long-dwell airborne 
surveillance systems to complement ground-based sources depends heavily 
on permissive airspace; if a hostile government with access to an air 
force and ground based air defenses chose to close its airspace, then 
our ability to use platforms like UAVs would be greatly reduced and we 
would have to fight for aerial access in ways that would greatly 
increase the cost and difficulty of the campaign while reducing its 
effectiveness.
---------------------------------------------------------------------------
    \9\ Greg Miller, ``CIA Spied on bin Laden From Safe House,'' 
Washington Post, May 6, 2011, accessed May 9, 2011. http://
www.washingtonpost.com/world/cia-spied-on-bin-laden-from-safe-house/
2011/05/05/AFXbG31F_story.html.
    \10\ David Gollust, ``Clinton: Pakistan Cooperation Helped Find bin 
Laden,'' Voice of America, May 2, 2011, accessed May 9, 2011. http://
www.voanews.com/english/news/usa/Clinton-Stresses-Pakistan-Cooperation-
After-bin-Laden-Killing--121092289.html.
---------------------------------------------------------------------------
    CT is also much more effective against small bands of terrorists or 
discrete sets of senior commanders than it is against large guerilla 
forces in the field; it is ill-suited to defend governments from broad 
insurgencies without a supporting COIN effort involving large friendly 
ground forces. If we shifted from COIN to CT in Afghanistan and 
withdrew the ground forces now critical to the COIN campaign, the 
Karzai government could collapse before the CT leadership targeting 
campaign bore fruit. And this would risk losing the ground and air 
access that effective CT requires.
    An explicit shift to a CT strategy would also aggravate the hedging 
problems noted above. Many Afghans already fear that the United States 
will shift from COIN to CT; to them, a U.S. CT strategy looks like a 
plan to allow Afghanistan to fall into chaos while the United States 
flies above it all with drones hunting for terrorists. This is an 
extremely unpopular image among Afghans, for whom it offers nothing but 
the prospect of endless internecine warfare. Occasional comments by 
U.S. officials suggesting that a CT approach would be preferable to 
COIN are thus read by Afghans as evidence that abandonment is coming. 
Even if the Karzai government did not fall in the immediate aftermath 
of an actual U.S. shift from COIN to CT, we could expect limited 
cooperation with such an agenda from the Afghans, who would be strongly 
motivated to seek accommodation with the Taliban under such conditions, 
and disinclined to support an American CT campaign with intelligence or 
other cooperation on the ground.
    As complementary elements of a joint campaign, COIN on the ground 
and leadership targeting from aircraft and special forces strengthen 
one another synergistically. But CT without COIN risks losing the 
prerequisites needed for its success. The ultimate purpose of our 
efforts is indeed to counter terrorism. But to do this well requires 
that we secure the governments whose support we need to conduct 
effective CT. Hence it is a mistake to see these as substitutes for one 
another: CT and COIN strengthen one another; CT without COIN is 
unlikely to work.
    A related argument raised since bin Laden's death is that his 
removal might warrant a shift away from COIN that would otherwise be 
unwise but can now be tolerated. If our ultimate purpose is to combat 
an al-Qaeda terror threat to the United States, then the effort would 
become unnecessary if the threat were removed. More broadly, the 
investment warranted in Afghan COIN is surely a function of the 
virulence of the al-Qaeda threat: the lower the latter, the smaller the 
former. If
al-Qaeda's effectiveness is attenuated enough, then eventually it must 
make sense to invest less in Afghan COIN even if this isn't as 
effective as a larger effort would be. If not, then we are committed to 
a permanent war with vast resource requirements and no conceivable way 
out. It must therefore be possible to identify a condition of 
``success'' such that we can stand down from this scale of effort; some 
see this success in bin Laden's killing.
    The problem here is twofold. First, it is too early to know what 
effect bin Laden's death will have on al-Qaeda. Most terrorist 
organizations survive decapitation. The United States, for example, 
killed the head of al-Qaeda's Iraqi affiliate, Abu Musab al Zarqawi, in 
2006; he was replaced, and the violence continued. Israeli leadership 
strikes against Hamas and Hezbollah have hardly destroyed either 
organization. Russian efforts to kill Chechen separatist leaders failed 
to defeat the separatist movement. There are exceptions: the Shining 
Path in Peru withered after the arrest of Abimael Guzman in 1992; Aum 
Shinrikyo was greatly weakened by Shoko Asahara's arrest in 1995. In 
general, however, decapitation campaigns can weaken terror groups by 
replacing talented leaders with less able successors, but they rarely 
destroy the organization.\11\ Perhaps al-Qaeda will follow the Shining 
Path exception; bin Ladenism was probably in some degree of general 
decline by 2011 given its reduced popularity in the Arab world as a 
result of its indiscriminate killing of Iraqi and other Muslims and its 
irrelevance in the ongoing Arab Spring uprisings. Maybe bin Laden's 
death will be the straw that breaks this camel's back and leads al-
Qaeda into terminal decline. Certainly it is worth careful monitoring 
of al-Qaeda's operational tempo and internal unity in coming months to 
look for possible evidence. But this would be the exception rather than 
the rule, and it is far too early to know whether al-Qaeda will follow 
such a trajectory.
---------------------------------------------------------------------------
    \11\ On the effectiveness of CT decapitation campaigns, see Audrey 
Kurth Cronin, ``How Terrorism Ends: Understanding the Decline and 
Demise of Terrorist Campaigns'' (Princeton: Princeton University Press, 
2009); Jenna Jordan, ``When Heads Roll: Assessing the Effectiveness of 
Leadership Decapitation,'' Security Studies, Vol. 18 (2009), pp. 719-
755; Daniel Byman, ``Do Targeted Killings Work?'' Foreign Affairs, Vol. 
85, no. 2 (2006), pp. 95-111.
---------------------------------------------------------------------------
    Second, the unique role of Pakistani instability and nuclear 
capability warrants special caution. Unlike most terror threats from 
most places, Pakistani militant groups have the potential to gain 
access to nuclear weapons if the host state collapses. A small remnant 
of an attenuated al-Qaeda somewhere else would pose a limited threat to 
the United States; a remnant that shared bin Laden's strategy of 
targeting America and got access to a usable nuclear weapon in the 
chaos of Pakistani state collapse could pose a threat far exceeding 
their numbers or nominal strength. Similarly, non-al-Qaeda groups pose 
unique perils in Pakistan. An organization like Lashkar-e-Taiba that 
has not heretofore been focused chiefly on the United States could 
nevertheless pose an exceptional threat if the Pakistani Government 
collapsed and lost control of its nuclear arsenal. The stability of 
Pakistan is especially worrisome with a healthy al-Qaeda posing an 
explicit threat to the United States from its territory, but Pakistani 
stability is unusually important to the United States even if al-Qaeda 
per se withers or dies altogether given the ongoing presence of other 
militants with the potential to shift their focus to the United States, 
and prospective access to nuclear weapons if Pakistan collapses.
    This does not mean that al-Qaeda's fate is irrelevant to the case 
for COIN in Afghanistan, or that no attenuation in the Pakistani terror 
threat could warrant drawing back from COIN to CT (even if the latter 
proved less effective without the former). But it does mean that it is 
too early to conclude that such a shift is warranted now. And it does 
mean that unusual care is warranted in assessing a COIN to CT shift in 
Afghanistan given its potential effect on Pakistan and the latter's 
unique status.

          IMPLICATIONS: THE UTILITY OF A NEGOTIATED SETTLEMENT

    Many insurgencies end in negotiated settlements involving some 
degree of compromise on both sides.\12\ As public dissatisfaction with 
the war has grown, interest in such a settlement has grown, too. The 
Afghan war poses a number of challenges to negotiated resolution, 
including the number of parties to any such talks, the likelihood of 
internal disunity within several key Taliban factions, opposition among 
northern Afghans, growing radicalization of actors such as the Haqqani 
network, ideological commitment by Mullah Omar and key leaders of the 
Quetta Shura, and the difficulty of knowing whether any given Taliban 
negotiating partner actually speaks for his faction or others. By the 
same token, however, President Karzai has expressed clear interest in 
pursuing a settlement. And the death of Osama bin Laden may remove some 
barriers to negotiation, whether by releasing Mullah Omar or others 
from oaths of loyalty to bin Laden that would have made reconciliation 
impossible, or by affecting Taliban morale and expectations.
---------------------------------------------------------------------------
    \12\ Estimated historical frequencies of negotiated settlement 
range from as low as 20 percent to as high as about 50 percent; the 
rate of settlement appears to have been rising since the 1970s. See Ben 
Conable and Martin C. Libicki, ``How Insurgencies End'' (Santa Monica: 
Rand, 2010), RAND MG 965, pp. 18, 169; Jason Lyall and Isaiah Wilson, 
``Rage Against the Machines: Explaining Outcomes in Counterinsurgency 
Wars,'' International Organization, Vol. 63, No. 1 (Winter 2009), pp. 
67-106.
---------------------------------------------------------------------------
    Among the more important factors shaping the prospects for 
negotiation are our aims and ambitions. The original, highly ambitious 
U.S. goals virtually precluded settlement. Perhaps a Taliban on the 
verge of total military defeat might accept terms that would exclude 
them from any meaningful role in a centralized, strictly democratic 
government, but if so the settlement would be little more than the 
surrender instrument for a beaten insurgency. It is hard to imagine any 
major Taliban faction accepting such terms until the military tide 
turned clearly, decisively, and conclusively against them. To have any 
chance for hastening the war's end via negotiation, we will have to 
accept compromises even as we demand them of the Taliban.
    We can, in fact, live with a degree of compromise relative to our 
original war aims while preserving the central security stakes for 
which we have fought. We do not require either the radical 
centralization or the strictly democratic system the 2001 model 
prescribed. There is room for some legal political role for the Taliban 
within the Afghan Government without undermining our fundamental 
security requirements as long as the limits and enforcement mechanisms 
discussed above are maintained. It should be possible, for example, to 
offer designated seats for some representatives of some Taliban 
factions in the Afghan Parliament, or in Provincial or District 
governments in the south or east, as long as there are practical, 
enforceable limits on their ability to use territory as a safe haven 
for militant violence.
    The Taliban are not, and never have been, a popular movement with a 
broad base of support. In repeated polls over years of surveys, they 
have never drawn more than about 15 percent support nationally. Even in 
their birthplace of the conservative Afghan south they remain a 
minority preference, and elsewhere their support varies from modest to 
negligible.\13\ This makes them unlikely to agree to lay down their 
arms in exchange for a chance to run for national office in free and 
fair elections; some extra democratic set aside of seats or offices or 
positions would probably be needed to persuade them to settle. But this 
also means that the prospects for containing their influence once 
brought into the government are reasonably strong as long as the non-
Taliban GIRoA has something to offer its citizens as an alternative to 
freely elected Taliban rule.
---------------------------------------------------------------------------
    \13\ The Taliban's strongest poll performance to date was a finding 
of 45 percent support in Kandahar that was reported in a Washington 
Post/ABC News/BBC/ARD survey of November 2010: see ``New Poll Reveals 
Afghan Perceptions of the War,'' Washington Post, December 6, 2010, 
accessed May 9, 2011. http://www.washingtonpost.com/wp-srv/special/
world/AfghanPoll
Results.html. More common is the figure of 11-percent support 
nationally in the same poll--or for Kandahar itself, the finding of 25-
percent support in a Canadian survey of April 2010: see ``Taliban 
Support Strong in Kandahar: Poll,'' CBC News, April 6, 2010, accessed 
May 9, 2011. http://www.cbc.ca/news/world/story/2010/04/06/taliban-
support-poll.html.
---------------------------------------------------------------------------
    And this in turn means that reining in government predation is a 
necessary component of any acceptable negotiating strategy. Corrupt 
predatory governance is the chief threat to public acceptance of the 
GIRoA. If a deal gave the Taliban a legal foothold in an Afghan 
Government too corrupt to command its people's loyalty, this could be 
tantamount to admitting a Trojan Horse: continued predation by non-
Taliban officials could eventually swing public support to a legalized 
Taliban that promised honesty and justice even at the cost of its 
ideology and repression. If so, then an initially limited, constrained 
role could grow into one that threatened U.S. core interests by 
enabling Taliban officials the scope to foment terrorism from Afghan 
soil. If government predation can be brought under control--not 
eliminated but at least capped and constrained--then the Taliban can be 
given a legal role in Afghan politics with the natural unpopularity of 
militant ideology acting as a check to strengthen other constraints on 
their ability to foment terrorism. But if not then a settlement could 
leave us unable to ensure that our interests were met in the aftermath.

              IMPLICATIONS: THE NEED FOR GOVERNANCE REFORM

    Finally, this implies that the needed governance reforms cannot be 
put off indefinitely. It is tempting to assume that the near-term 
requirement for security can safely be allowed to push governance 
reform into the distant future. And there are near-term tradeoffs 
between security and reform that can encourage the former to displace 
the latter: many malign power brokers in Afghanistan maintain militias 
or other security forces that they make available to coalition 
commanders to reinforce our security efforts in exchange for our 
overlooking their economic exploitation of the population. Others use 
private security firms under their control to protect logistical 
convoys that supply coalition troops, or they make protection payments 
to the Taliban or other local militants to ensure safe passage; if we 
crack down on their economic predation, their continued security 
cooperation is unlikely, and they can be expected to turn on us 
instead. With an urgent need to reverse Taliban military momentum by 
contesting their control of important districts, there is constant 
pressure on coalition commanders to postpone the needed reckoning to a 
future when we hope we will have the flexibility to clamp down on 
corruption in a safer environment.
    But in fact we cannot safely delay an aggressive governance 
campaign. Not only would this risk undermining any prospective 
reconciliation deal, as noted above. But it also undermines our ability 
to provide a degree of security that could actually permit us to 
drawdown our forces and hand off to a capable ANSF. Civilians 
systematically dispossessed by a predatory government will inevitably 
turn to the Taliban for succor (and the Taliban have been very astute 
in exploiting this to position themselves as the defenders of the 
dispossessed), even if they otherwise dislike the Taliban's ideology or 
politics. If civilians who have been wronged--or expect to be--continue 
to do this, no density of security forces will be sufficient to exclude 
the Taliban from victimized communities.
    Worse, there may be reason to expect that the ANSF itself will be 
coopted in ways that undermine its ability to take over security duties 
as we drawdown. Security forces are products of the societies from 
which they are drawn. Where the society around them is dominated by the 
political and economic effects of malign patronage networks, it is 
unrealistic to expect that the security forces will somehow be 
hermetically sealed off and unaffected by this. Malign actor networks 
realize that they need top cover and protection for their activities; 
it would be dangerous for such predators to allow powerful armed forces 
in their midst to operate without some degree of control or cooptation 
by the network. And this gives Afghan power brokers a strong incentive 
to extend their reach and their influence into the police and the army.
    Historically, where armies in the developing world fail it is 
normally not because they have not yet taken the right training courses 
or had sufficient rifle ranges, advisers, or equipment available. The 
most important cause of failure in developing-world militaries is their 
politicization and corruption at the hands of the regime and its 
patrons. When the officer corps is politicized and corrupted, its 
ability to motivate effective combat action by its troops is powerfully 
undermined. Troops know when their leaders value political connection 
and graft above professional competence and service to the mission. No 
soldier wants to die for a corrupt chain of command, and no soldier 
wants to put his life in the hands of an officer who cares more about 
his connections than his military skills. The result can easily be a 
hollow army or police force, whose size or equipment does not reflect 
its actual capability, and whose ability to hold ground or defend 
population centers is much less than meets the eye.
    In Afghanistan today, police corruption is a known problem, and 
considerable efforts are underway to monitor this and remove corrupt 
leaders. The Afghan National Army (ANA), on the other hand, is commonly 
assumed to be mostly free of corruption and more effective in the 
field. This may well be true for now (though we know less than we might 
about the problem of politicization in the ANA today; since this has 
not been a high priority concern heretofore, it has thus received much 
less intelligence attention and command oversight than has the problem 
of police corruption). But the ANA is unlikely to remain unaffected if 
the surrounding society remains as dominated by corruption as it is 
now. Whatever the effectiveness of the ANA today, if we do not address 
and delimit the problem of corruption and misgovernance in Afghanistan 
soon we risk undermining the efficacy of the military tool that we are 
relying upon to take up the slack as we drawdown.
    It is thus a mistake to assume that security and governance reform 
are separable, and that the former can safely precede the latter. The 
McChrystal assessment report argued that security and governance reform 
were coequally necessary for success; this is as true today as it was 
in 2009, and implies a need to ensure that progress in one is not 
allowed to outstrip progress in the other.

    The Chairman. Well, indeed--thank you all very much. I 
think it's a good framing of the beginning of this discussion, 
which is very important and very tricky.
    There's so much to focus on. And I hope, with all our 
colleagues here, we're going to get to all of it as we go 
forward. So, I guess my question doesn't have to cover all the 
bases.
    Therefore, let me try to just focus on one of the most 
important components of this, which is really defining the 
mission. I've heard three different things from all of you. And 
you're the experts, and you all see a destabilizing threat to 
Pakistan, yet you've put forward different choices. Dr. Jones, 
you've sort of landed in the middle, between the 
counterterrorism and full-flown counterinsurgency. And, Dr. 
Kilcullen, I think you are a bit more limited.
    But, I want to see if we can try to really define: Why 
should we be there now? What is our interest? Is our interest a 
stable Afghanistan, because of this threat to Pakistan? Is our 
interest simply to be able to sufficiently prevent the return 
of al-Qaeda, and destroy it, ultimately? I mean, I think two of 
you, at least, mentioned the destruction of al-Qaeda--or one of 
you mentioned the ``disruption'' and another, the 
``destruction.'' So, is it possible for us to agree on the 
mission?
    I mean, it's going to be very hard for the American people 
to feel confident about where we're going if we can't give a 
pretty simple well-agreed-upon broad-consensus definition of 
what the mission is.
    So, what exactly is the mission in Afghanistan, Dr. 
Kilcullen?
    Dr. Kilcullen. Well, thank you, Senator.
    You know, I don't carry a brief for the administration, but 
I think the administration's actually expressed it relatively 
clearly, and that was what Dr. Jones echoed. The core goal that 
the White House has put forward is the idea to disrupt, defeat, 
and eventually--and--disrupt, dismantle, and defeat al-Qaeda in 
the AfPak region. And the goal in Afghanistan is to generate a 
stable enough platform to achieve that overall goal.
    I think you could look at it more specifically in terms of 
transition. In one sentence, I think the mission of the moment 
now in Afghanistan is to make the country stable enough that we 
can reduce the United States footprint to a sustainable level 
without an unacceptable drop security. And, of course, there 
are two important soft adjectives there: sustainable and 
unacceptable. ``Sustainable,'' I think, means politically, but 
also fiscally sustainable. And ``unacceptable,'' I think, 
translates to the administration's core goal. An unacceptable 
drop in security is one that undermines our ability to 
eventually disrupt and defeat al-Qaeda in the region.
    In other words, we're making Afghanistan stable as a means 
to the end of defeating al-Qaeda in the region. And I think 
that's a relatively low bar, compared to some of the very 
maximalist objectives that people have put forward in the past. 
But, just because it's a low bar strategically doesn't mean 
it's not going to cost a lot of resources to get there. And 
that's probably a separate question.
    The Chairman. Well, let's go--we'll come back to that in a 
minute.
    Dr. Jones, do you agree? Is that----
    Dr. Jones. Yes.
    The Chairman [continuing]. A full definition? And you're 
comfortable with it?
    Dr. Jones. I am comfortable with Dr. Kilcullen's 
definition. I would say, just to support him, what we don't 
want is an attack on the U.S. homeland which emanates from this 
region. And we don't want, in my view, a government or a group 
that allows training camps and missions to be planned from this 
region. That is what I think we can reliably tell the American 
public we are looking to prevent.
    The Chairman. Dr. Biddle.
    Dr. Biddle. I agree wholeheartedly with my colleagues on 
the panel. The only amendment I would offer is that I would be 
cautious about identifying the threat of terrorist attacks to 
the United States too narrowly around al-Qaeda, per se. It has 
been the primary source of such a threat in the past. If its 
destruction leads other organizations in Pakistan, however, to 
shift their aims in ways that they have not heretofore, and 
take up the banner of
al-Qaeda's war against the distant enemy, the underlying 
identification of our interests implies that we would then have 
to broaden our target somewhat.
    But, the focus of it is exactly as Dr. Kilcullen and Dr. 
Jones have suggested.
    The Chairman. So, let me build on that a little bit.
    How likely is it, with the death of Osama bin Laden, that 
Pakistan will decide to join wholeheartedly in this effort--
i.e., to focus on the Haqqani Network, harness or tame the 
disparate instincts of the ISI, and make a wholehearted effort 
to go after the Quetta Shura and foreign nationals in their 
country? To what extent could their decision greatly alter the 
choices that we face, and indeed, the length of this struggle?
    Dr. Kilcullen.
    Dr. Kilcullen. Sir, in fact, Dr. Jones's organization, the 
RAND Corporation, did a study last year which looked, in part, 
at what the effect might be of removing a sanctuary on chances 
of success in a counterinsurgency environment. I'm quoting from 
memory, but I'm pretty sure that you have a very significant 
improved chance if you can reduce the sanctuary. And I think 
it's roughly about 86 percent of cases, where you can 
successfully destroy the insurgent sanctuary in a neighboring 
country, the government wins. But, if you fail to destroy the 
sanctuary, you still win in about 60 percent of cases. So, it's 
actually not essential to destroy the sanctuary. It is very 
advantageous, but it's nonessential. So, I think we should bear 
that in mind, when thinking about what we expect from Pakistan.
    I think we should also bear in mind the history of our 
relationship with Pakistan, which you know better than anybody 
else, and have some realism about our expectations of what they 
will actually do in response to this series of events. I don't 
think we're likely to see a significant drop of support, 
certainly not for the Haqqani Network, possibly not for Quetta 
Shura. I think they're going to continue to operate.
    The Chairman. And that's because they perceive a very 
stable, strong central government, well-armed Afghanistan, as 
not in their interest. Isn't that accurate?
    Dr. Kilcullen. That may well be true. I think there's 
another sort of instrumental reason, which is, just because an 
organization like ISI can turn on an organization like the 
Haqqani Network doesn't mean that they can turn it off. So, the 
ability to create mayhem and disruption through sponsoring a 
terrorist organization doesn't necessarily mean that you still 
control that organization. I'm speaking hypothetically here, 
obviously. But, if indeed the Pakistani Intelligence Service 
have had, in the past, some relationship with groups like the 
Haqqani Network and the Quetta Shura, just because they 
previously had a relationship doesn't mean that they can now 
decide to shut them down. And I think that's the problem that, 
in fact, a lot of Pakistanis are confronting now.
    The Chairman. Dr. Jones, what kind of cost are you looking 
at in your ``middle'' strategy--which is neither a 
counterterrorism platform, nor a full-blown counterinsurgency? 
What's the annual nut on that strategy?
    Dr. Jones. Well, it would vary by year, depending on the 
size of the footprint. What it comes down to, by 2015, though, 
is a smaller Afghan National Security Force presence, a 
smaller--depending on conditions and other factors--a smaller 
United States footprint and an Afghan local police footprint. 
This puts us--I can give you the numbers by year--or your 
staff--after the hearing. But, it puts us well below the $12.8 
billion, for example, for Afghan National Security Forces, for 
fiscal year 2012. And it certainly varies by year.
    The Chairman. Why--is it more than $6 billion a year?
    Dr. Jones. It's, depending on the year, between about $6 
and $10 billion per year. But----
    The Chairman. For how many years?
    Dr. Jones [continuing]. But increasingly decreasing.
    The Chairman. Senator Lugar.
    Senator Lugar. Well, the panel has suggested, in answer to 
our basic question, ``Why Afghanistan?'' that we will want to 
stop attacks on the United States emanating from Afghanistan, 
and that one way of doing this is to eliminate training camps 
or other means of support possessed by terrorists there.
    Now, let me ask the following question, with two 
reflections. One is that some persons, long before the death of 
Osama bin Laden, were writing about the fact that the situation 
we face in Afghanistan today originated after the United States 
fulfilled Saudi Arabia's call for support following Iraq's 
invasion of Kuwait. As we know, a lot of American troops were 
deployed to Saudi Arabia, and not only for the duration of the 
gulf war, but several years thereafter. Now, the American 
presence on Saudi soil lead Osama bin Laden and his associates 
to emphasize their view of America as their enemy.
    Second, there was the situation, described by the Russians, 
of their attempt to do some of what we're attempting to do now 
in Afghanistan. Principally, that is to train Afghan police and 
military to bring about stability at the village level or the 
provincial level. They had some success for quite a period of 
time, although they had problems stemming from unrest among 
Afghanistan's different ethnic groups. However, in due course, 
the Russians ran out of money and time, and they never quite 
got the job done. Indeed, there remained the enduring 
historical problems in Afghanistan that were well beyond their 
efforts to put a centralized government in place there.
    Now, I raise all of this because, once again, why is there 
the thought that we must dedicate so many of our finite 
resources to the situation in Afghanistan? Couldn't those who 
threaten us come from somewhere other than Afghanistan, such as 
Yemen or Somalia? Are there plans to set up forces in these 
countries that are the size and shape of those we have in 
Afghanistan? And finally, given the Russian experience--maybe 
we'll do better, but there are many historians who simply would 
point out that the diverse constitution of Afghan society does 
not really lead to a good centralized government. So, you've 
pointed now to the fact that we might think, in a more 
sophisticated way, of something less than central, wherein we 
have local entities--bits and pieces of governance--that 
somehow negotiate a pact among each other, and with us, that 
brings stability. This seems very, very difficult to imagine, 
and very hard to describe in parts or in conclusion to the 
American people or anybody else.
    So, my basic questions get back to: Why Afghanistan? Is it 
because, originally, we got crosswise with al-Qaeda, due to the 
earlier wars? And could we get uncrosswise with them if we were 
out of harm's way there? What you have described as one 
alternative is a very small group of people that do 
intelligence work, that do JSOC work, that, in fact, do this in 
Afghanistan plus Yemen plus Somalia plus a lot of places. That 
such an effort keep an eye on everybody in this manner, without 
getting into the governance of a situation that is proving to 
be very difficult, if not impossible, for us?
    Does anybody have a comment about all of that?
    Dr. Jones. I'll go first, Senator Lugar. I know my 
colleagues have comments, as well.
    I would argue several things. First, al-Qaeda was created 
here, in the Peshawar area. Its strongest support base, in my 
view, is here, as opposed to any other place in the world--
Somalia, Yemen. In particular, if one looks at the tribal 
structures, Pashtun tribal structures were the Mehsuds, the 
Waziris, the Mohmans, and a range of others. These are 
individuals who have fought with, for the last three decades, 
and provided sanctuary to, a range of
al-Qaeda leaders. So, they have a long-term relationship.
    They're also--in addition to the tribal/subtribe clan 
structures, there are also a range of militant groups, from 
Lashkar-e-Tayyaba to Jaish-e-Mohammed, that have supported al-
Qaeda. So, I would strongly argue that this is a safe haven, in 
my view, that is different from Yemen, Somalia, and other 
places.
    And, in addition, I would also say, if one looks at the 
bulk of the attacks over the past 10 years--the London attack, 
successful; the Madrid attack, successful; the 2006 
Transatlantic plot, nearly successful; the Zazi attempted 
attack; Shahzad--they emanated from individuals operating here. 
Clearly, Yemen is a problem with Awlaki. But, I think this is 
an extraordinary threat.
    Dr. Biddle. I would agree with Dr. Jones that Afghanistan 
is different, as a haven, than other prospective havens. I 
would frame the reasons a little bit differently.
    I think the primary reason Afghanistan is different is its 
proximity to Pakistan because I think it's important to 
distinguish different varieties and classes of terror threat. 
The threat emanating from places like Yemen or Djibouti or 
Somalia or elsewhere is of important but nonetheless 
conventional terrorism. The downstream threat associated with 
failure, uniquely in South Asia, is the potential collapse of a 
nuclear-armed and very unstable state that's facing an internal 
insurgency of its own in Pakistan.
    One of the very few scenarios I can think of that produces 
any plausible chance of terrorist access to a weapon of mass 
destruction that they could actually use against the United 
States would be if, as a downstream consequence of failure in 
Afghanistan, we were to tip an unstable Pakistan into collapse 
in such a condition that the military and the intelligence 
services split and the nuclear arsenal of the country breaches 
containment. That, it seems to me, is the critical distinction 
between our strategic interests in Afghanistan and our 
strategic interests in Yemen or in Somalia or elsewhere.
    Senator Lugar. But this then tips things back toward the 
idea of the central importance of Pakistan; in other words, 
that the primary importance of promoting stability in 
Afghanistan is to prevent nuclear proliferation out of 
Pakistan, which is another interesting twist in our hearing 
dialogue today.
    Dr. Kilcullen.
    Dr. Kilcullen. Sir, I just want to note that all the 
examples that Dr. Jones gave came from Pakistan, not 
Afghanistan. The regional epicenter of terrorism is not 
Afghanistan. It's highly unlikely that we would see a terrorist 
attack on the United States emanating from Afghanistan.
    The risk is somewhat different, in my view. It's that 
instability in Afghanistan contributes to a regional pattern of 
instability. And that can undermine the stability of Pakistan. 
And that can significantly raise the threat. And it isn't just 
the threat of terrorism. It's also the threat of nuclear 
confrontation with India, of state collapse, and of a variety 
of other problems associated with changes in the security 
environment in Pakistan.
    So, I think the chances that al-Qaeda, for example, would 
move back to Afghanistan and set up a base, if we were to 
leave, are relatively slim. What's much more likely is that 
there would be increased asset available to both the Pakistani 
and Afghan Taliban, there would be increased reason for an 
alliance between those groups and remaining terrorist 
organizations, there'd be a much higher level of instability in 
Pakistan, and that could potentially lead to all these negative 
consequences.
    So, I think the ultimate argument is correct, but the 
pathway to it is one of regional instability and, potentially, 
nuclear confrontation in South Asia. That's what we, I think, 
have to think of as the primary outcome of failure in 
Afghanistan. Not so much somebody from Afghanistan attacking 
the United States, but a threat to the United States emanating 
from that instability in the region.
    Senator Lugar. Well, my time is up. But once again, we're 
back to our problem. We have a hearing on Afghanistan, but, in 
fact, we're back to discussing Pakistan and the broader region. 
And maybe that's the correct analysis of where we ought to be 
having the discussion for this hearing. But, it does pose 
problems for all the questions we were raising initially 
regarding how we counter threats to our security on a day-by-
day basis in terms of our budget and the disposition of our 
forces, and how many of these resources should be dedicated 
specifically to Afghanistan.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    Thank you all for your testimony. It's very important, I 
think, for us to do this, because we are in Afghanistan, now, 
for a very long time. And I'd like to do kind of a reality 
check. And I'm going to end it with a question to Dr. Jones, 
because his statement that a large-scale withdrawal of U.S. 
forces from Afghanistan would reaffirm, ``the regional 
perception that the U.S. is not a reliable ally,'' is very 
troubling to me. And so, I want to press you on that, Dr. 
Jones, if I might. Are you with me?
    Dr. Jones. Yes.
    Senator Boxer. OK.
    So, we're talking about, What is the mission? I would like 
to go back to why we went there, because I think most of us 
sitting here, most of us, were either in the House or the 
Senate when we voted to go into Afghanistan. Why did we do it? 
We had no interest in doing that. I had talked about the 
Taliban for years. Women's groups had come to me, they talked 
about the burqa, they said we've got to get rid of the Taliban. 
Nobody was that interested. And we did pass legislation never 
to recognize the country of Afghanistan, as long as it was led 
by the Taliban. And I was proud to be involved with that, in a 
bipartisan way.
    So, we went in there because of the horrific attacks on 
September 11. You remember exactly why we went in there. And we 
said, ``We're going there to get Osama bin Laden and al-
Qaeda.'' That was the reason we went there. So, all of this 
expansion, I think, of our role there, I'd like to take it back 
to that.
    Now, thanks to our President and the brave military forces, 
we know that justice was served on bin Laden, and we didn't do 
it with boots on the ground; we did it with counterterrorism, a 
lot of what Senator Kerry talked about during his Presidential 
campaign. That's how we did it. And we delivered, our troops 
did, overdue justice.
    But, I also think it's a turning point. And, from 
intelligence information we gathered during the raid, we 
learned that bin Laden was playing a significant role in the 
organization's day-to-day operations. He wasn't just sitting 
there and doing other things; he was plotting and planning. As 
the New York Times--an American official quote in the Times 
said, ``He wasn't just a figurehead, he plotted and planned to 
come up with ideas about targets, et cetera.''
    So, this important news comes along with significant 
progress we've made against other Qaeda figures in Afghanistan 
in recent years. In fact, the current director of the CIA, Leon 
Panetta, says that the number of Qaeda in Afghanistan is less 
than 50, and, in the region, less than 500. We talk about the 
region--and Senator Lugar's right to do that--less than 500. 
So, we have all these boots on the ground.
    And so, here's my question, and I want to give you some 
facts, before it. I laid out the predicate. Talk about the 
region, saying, ``Well, if we withdraw, they're going to think 
we're not committed, and they'll be upset with us; we're not a 
reliable ally.''
    So, here's the situation: Pakistan is now the second-
largest recipient of U.S. foreign assistance, receiving $4.3 
billion in FY 2010. We know that's now a little controversial, 
but I assume we're going to keep helping Pakistan; and I'm one 
who believes we have to, with more strings. And you know the 
United States has spent more years fighting in Afghanistan than 
any other war. If anybody says, ``Oh, we're not committed to 
the region,'' how about the 100,000 forces we still have on the 
ground, $\1/2\ trillion we spent, $10 billion a month. We can 
ill-afford it. Right now, let's be frank, there are certain 
military people who say the biggest threat is our debt. Well, 
we've got to look at all these things.
    We've trained 125,000 members of the Afghan police and 
159,000 members of the Afghan Army. They have less than 50 al-
Qaeda. And we have spent $26 billion equipping these soldiers 
and these police that we have trained. Most tragically, we've 
lost 1,562 Americans; 11,191 have been wounded, and you've seen 
some of those wounds. Unimaginable injuries. Unimaginable 
injuries. And we know a growing number of our personnel 
suffering the loss of more than one limb or devastating groin 
injuries.
    So, if 10 years of American sacrifice hasn't convinced the 
region that the United States is a reliable ally, and all this 
money that's going into that region, why are you confident that 
more time, more money, and the loss of more American lives will 
change that view? And do people there have a right to assume 
we're going to continue this level of assistance forever? Isn't 
there a time when every country has to say, ``We believe in our 
country, we're going to defend ourselves,'' especially since 
we've trained all these troops?
    So, I like the odds that we've done here. We've got 
159,000--159,000 Afghan National Army trained, 125,000 police, 
against 50 al-Qaeda.
    Dr. Jones. Thank you, Senator.
    A couple of points. One is, it is an unfortunate 
perception--it was not the primary component of my critique of 
the counterterrorism strategy, but I think it is an unfortunate 
reality in the region and will certainly impact the way other 
countries, including Pakistan, will behave over the next 
several years.
    I would add a couple of things. One is, on the numbers of
al-Qaeda, I would point out--I'm going to disagree with Dr. 
Kilcullen for a moment. Almost every tribe, subtribe, and clan 
that I referred to operates on both sides of the Pakistan/
Afghan border. Al-Qaeda, in general, its migration patterns 
have been on both sides of that border. They look for a vacuum. 
In my view, if we push out of Afghanistan, it allows--as we've 
seen up in Nangarhar, Kunar, Nuristan, they will push back. So, 
I would not draw a strong line along the Durand Line.
    And, just to highlight it, my biggest critique of the 
counterterrorism strategy is that it does not, in my view--it 
is not an effective strategy to minimize Afghanistan from 
becoming a sanctuary or an ally. In my view, a Taliban 
government in Afghanistan would be a serious, serious problem 
for the United States, because U.S. intelligence assessments 
now indicate a relationship between al-Qaeda--senior al-Qaeda 
leaders, the Taliban, inner Shura, several key members in the 
Haqqani Network. That is not something I believe that we can 
look Americans in the eye and be OK with.
    Senator Boxer. OK. Well, my time has run out. But I will 
say this to you, I don't think you give enough credit to the 
people of Afghanistan who don't want the Taliban and who have 
these trained police and who have these trained military. And 
nobody's saying we wouldn't have counterterrorism forces there. 
And I think your critique of that is misplaced. That's how we 
got bin Laden. That's how we got the other leaders.
    And, for me, to live by somebody else's reality or 
perception of reality is not the way to go. I've gone through 
my whole life. There's people who perceive a lot of things 
differently than I do. But, you have to fight for what's real. 
And what's real is the dead, the wounded, the cost, and the 
comments, I think, of Senator Lugar, of all the other places in 
the world. So, I think you paint way too drastic a picture as 
what would happen if we don't have the boots on the ground. And 
no one's suggesting we don't have a presence.
    But, I think that your testimony is very disturbing to me. 
And I don't think America could say, ``Oh, because they say 
that's true, we might as well have policy, based on their 
faulty perception.'' It's very risky business, because--I just 
went to China; they have a lot of misperceptions. And I don't 
expect to change our policy because of their misperceptions.
    The Chairman. Did you want to answer?
    Dr. Jones. Sure. Just briefly.
    Well, one of the issues I've been involved in over the last 
several years is actually having Afghans stand up for 
themselves, the Afghan Local Police Program and village 
stability operations, I was involved in from the beginning, in 
2009. And I would just say that what I am talking about is 
decreasing the footprint, but supporting Afghans' fight for 
themselves. What we've seen Uruzgan, Helmand, Kandahar, is 
Afghan communities who actively have fought for them. I have 
served--and I was one of the Americans serving in Afghanistan 
along those lines.
    But, I would say I agree with you on--Afghans are willing 
to combat the Taliban----
    Senator Boxer. Good.
    Dr. Jones [continuing]. Both the central government----
    Senator Boxer. Good.
    Dr. Jones [continuing]. And locals. And we have seen that.
    Senator Boxer. Good.
    Well, I want to put in the record, from your statement, Dr. 
Jones, that you would have, in 2014, 40,000 troops--American 
troops, boots on the ground. I don't think that's the right 
footprint. We ought to get--stop this--the combat forces, and 
concentrate on the other ways.
    The Chairman. Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    I appreciate your testimony; I've enjoyed all of it.
    Let ask each of you--the issue of Pakistan has come up in 
each of your testimony, and certainly by questions from people 
here at the dais. Should we reach agreement with Pakistan on 
what our joint efforts are going to be, as it relates to 
Afghanistan, and let that be part of the equation, as it 
relates to our aid to that country? I mean, isn't this a moment 
where that sitdown should take place and we should absolutely, 
without any doubt, understand, with a fairly unreliable partner 
today, that our goals are going to be exactly the same, and let 
that be a component of the aid that goes to their country?
    Dr. Kilcullen. Thank you, Senator.
    Look, I think we should. I think we already have. And, in 
fact, the Kerry-Lugar legislation of a couple years ago was 
designed to be part of a process of bringing that agreement to 
fruition. The problem we have is not that; it's that we don't 
have a trustworthy interlocutor that we can deal with on those 
kind of issues inside Pakistan. Not to say that the Pakistani 
Government necessarily is backing or supporting the opposition, 
but that it's very difficult to know at what level that support 
stops. It's pretty clear that some elements inside Pakistan and 
some elements of the national security establishment of 
Pakistan have taken a supportive attitude, not only to the 
Quetta Shura, Taliban, the Haqqani Network, and other terrorist 
organizations, but also possibly to groups associated with al-
Qaeda. But, does that mean that somebody senior in the 
Pakistani Government has backed that? It's a bit of an open 
question. So, it's very, very difficult to actually get to an 
agreement that's going to stick with Pakistan.
    I think that the best thing that we can to do limit our 
vulnerability there is to successfully prosecute the campaign 
in Afghanistan. The more stable we make the environment in 
Afghanistan, the more we damage the Taliban, the less use it is 
to anybody inside Pakistan to continue to support or enable the 
Taliban as a proxy instrument. I think that undermines the 
motivation, as well as the capability, on their part.
    Senator Corker. Anybody with a differing point of view?
    Dr. Biddle. Well, I think the question, again, gets back to 
long run objectives. Part of the problem in our relationship 
with Pakistan right now is that they're hedging against an 
expectation that the United States has unrealistic aims which 
will ultimately lead us to disengage. They, therefore, in order 
to protect themselves against that possibility, maintain links 
with organizations that make success less likely, but that 
build in a second-best alternative for them if, in fact, 
success doesn't obtain.
    Part of the process of coming to a relationship with 
Pakistan that's less pathological than what we have now, it 
seems to me, is a greater degree of clarity on our part about 
what we're seeking, about the ability to secure what we're 
seeking with the resources we're willing to provide, and our 
ability to negotiate actively with parties in the region to try 
and bring about some mutual condition that meets all of our 
interests.
    We're in the process of trying to engage in talks with the 
Afghan Government now about the longer term. There may be 
reconciliation talks beginning. The complexity of those should 
not be underestimated. But, if we are going to engage, for 
example, in serious reconciliation talks in South Asia, it has 
to involve the Pakistanis and it has to enable them to try and 
realize some of their interests, as well as ours, in any 
settlement that emerges, else they will use their spoiler 
capacity to destroy any progress that can be made toward that.
    But, if we don't arrive at some mutually agreeable 
understanding of what the end state looks like, such that 
Pakistan stops trying to undermine it because they don't think 
what they're going to get is something they can live with, the 
Pakistanis have a substantial and impressive capacity to hedge 
in ways that make it very unlikely that we'll receive an 
outcome we can live with.
    Senator Corker. How does the fact that, in essence, any 
kind of Afghanistan, if we are--if we get to ``good enough''--
and I agree with the testimony that it's not clear what ``good 
enough'' is, and that creates some of the problems that you're 
talking to--but, if we get to ``good enough,'' Afghanistan will 
not exist without us, they're going to be our supplicant. 
There's no way that they can continue to take care of the army 
and the police on the ground. I mean, the budget--it's just not 
possible. So, they, in essence, will be our supplicant in a way 
that I don't think any country that I can remember in recent 
times has been.
    How does that play into the equation, both on the Afghan 
side and on the Pakistani side, and, to Dr. Kilcullen, the rage 
that you were talking about that people have on the ground, as 
it relates to the many problems that exist there?
    Dr. Kilcullen. Let me pick that up first. It costs us 
roughly $12 billion, right now, per year to support the Afghan 
National Security Forces, police and military. Even if we were 
to still be supporting those forces at that same level, and be 
providing roughly the same amount of support in civilian 
assistance, in 2014, that's still an
85-percent reduction in the cost of the war now.
    Senator Corker. But, they're still our supplicant.
    Dr. Kilcullen. Absolutely. But, I think that there's a very 
important objective here, in reducing the overall cost of the 
war, and a lesser objective of reducing Afghan dependence on 
the international community. The way that counterinsurgency 
campaigns of this nature usually play out is that there is a 
heavy investment phase, up front, that sometimes goes for 10 to 
12 years, followed by a very long, drawn-out tail that can go 
20 or 30 years. Most successful examples of counterinsurgency 
involve that.
    The trick is to get to that second phase, which is a much-
reduced cost over a longer period of time. And I think that's 
what transition is all about, between now and 2014, getting 
ourselves to the position where the Afghans can continue to 
suppress incivility and terrorism in their area, with a lot of 
international assistance at first, but gradually reducing over 
time, but still 80 percent lower than it is today.
    Dr. Jones. Couple of quick comments.
    First, Afghanistan has always been what we call a ``rentier 
state.'' It has always--during the cold war, it actually 
received both American and Soviet assistance.
    But, I would say that the burden, I think, is on us to do 
two things, possibly simultaneously. The first one is to get 
others to help share the burden, whether it's neighbors--and 
one has to be careful, a little bit, of the zero-sum game, I 
think, between the Indians and the Pakistanis--but, how can 
neighbors and others with an interest, including the British, 
help share some of these costs?
    The second is to put Afghanistan on at least the road where 
it can increase its revenue basis. If one looks at the lithium, 
copper, iron mines that are completely or largely untapped, 
frankly, except for the Chinese, in Afghanistan, there are 
ways, I think, one can begin to increase the government's 
ability to cover some of those costs.
    Dr. Biddle. Just to add one minor point, it's important to 
note that, for most of the 20th century, Afghanistan was stable 
and at peace. During that time, when Afghanistan was stable and 
at peace, it was a ward of the international system. At no 
point in the 20th century was Afghanistan able to operate under 
its own revenue. At many points, the majority of all the 
government revenue in Afghanistan was coming from foreign 
assistance. That did not necessarily make Afghanistan a source 
of instability for its region.
    So, to call them a supplicant is accurate, in some senses, 
but it implies that the Afghans will find it unacceptable. 
Whereas, I think there is a substantial historical record to 
suggest that Afghanistan is able to operate stably, in steady 
state, with substantial levels of foreign assistance, and not 
finding this to be a violation of their sovereignty or other 
conditions that would lead to instability.
    Senator Corker. Can I ask one more quick question?
    I guess the difference, though--and maybe, historically, I 
don't remember correctly--I mean, have they ever had this large 
of a trained central military? In other words, the money that 
will need to go to them for years will have to go to them. If 
it doesn't go to them, those armed troops will do something 
with the arms if they're not getting paid. OK? So, it seems to 
me that dynamic will be very different this time, if we ever 
get to ``good enough.''
    Dr. Biddle. But, it seems to me that it's important to 
distinguish between the wartime national security requirements 
of a state and the peacetime national security requirements of 
a state. Afghanistan is now waging a war, for which one would 
reasonably expect that a level of mobilized military effort 
that would be required would be much greater than would be the 
case if, in fact, this brings about a satisfactory resolution 
to the conflict.
    It seems to me that part of the planning process for 
building up the ANSF, however, should be some thought to how 
we're going to build it down and demobilize it if and when we 
reach a point where, either through negotiated settlement or 
through simple decay of Taliban military capability, we get to 
the point where that's no longer necessary. If what we're doing 
is we're building an institution that cannot be built down, 
then it will be a destabilizing element within a state that 
will never be able to afford a military establishment on the 
scale that we are now constructing. But, normally one expects 
that there will be a process of demobilization.
    So, it seems to me that when one thinks about the revenue 
stream required for Afghan security forces, one needs to 
differentiate between the waging of the war and what will be 
required in steady state once that's over.
    Senator Corker. Thank you.
    The Chairman. Thank you very much.
    Senator Udall.
    Senator Udall. Senator Kerry, thank you for holding this 
hearing. I think it's very important.
    One of the things we aren't getting to--and Senator Kerry 
asked that big overall question, How do we make the transition? 
It seems to me--and we used to talk about this some, and this 
is the issue of a flexible transition deadline. And President 
Obama, I think, in that national security order, talked about 
July 11 being the date for an accelerated transition. And he 
really emphasized that, ``accelerated transition.'' And 
somehow, now we've gotten ourselves to the position where we're 
not talking anymore about an accelerated transition to an 
Afghan-led operation in July 2011; we've now moved to 2014.
    And I'm kind of trying to figure out, you know, how that 
all happened. What is it--you know, it appears that all three 
of you agree that we should be doing that, and that the reason 
is the mission, that I think's been pinned down here, to 
defeat, disrupt, dismantle al-Qaeda in the Afghan/Pak region. 
What I can't understand is, if we had, as our--and which the 
President laid out, accelerated transition deadline and move in 
that direction, What is it that has happened that keeps moving 
it down the road? Is it the failure of the Afghans to really 
step up to the plate? Is it the corruption? Is it the 
inadequate partnership? I mean, what's going on here that has 
caused that?
    And I think that's the big question, back in my State. And 
the other question that comes up with people, Why do we keep 
moving this down the road? So, please----
    Dr. Kilcullen. I can give you the historical aspect to 
that, Senator.
    Last November in Lisbon, in Portugal, the NATO countries 
involved in the campaign got together for a summit meeting, at 
which they reviewed progress and made the decision to--NATO, as 
a group, made the decision to put a peg in the sand of 2014 for 
completing transition.
    I think--and I'd defer somewhat to Dr. Biddle on this--I 
think that we are entering, in July 2011, what I would 
characterize as a war-termination window, so that we're 
basically getting to the point, by this summer, where we need 
to be beginning that transition or glidepath to full Afghan 
control. The administration and NATO have always said that it's 
going to be conditions-based. It's going to depend on how 
things pan out on the ground.
    But, I think you're going to start to see a process--it's 
already happening, actually, in Afghanistan--of provinces and 
districts and, in particular right now, town centers starting 
to transition to Afghan National Security Force control. Right 
now, Kabul province and Kabul City, itself, is already fully 
under Afghan Security Force control. ISAF has identified a ring 
of provinces around Kabul, the next ring out, to be next in the 
priority order for transition. And we're also seeing 
significant centers--for example, Lashkar Gah, the capital of 
Helmand, in the south, being prepared for transition to the 
Afghans.
    So, there will certainly be some transition activity this 
year. I would caution members of the committee into thinking 
that--against thinking that that means we can immediately pull 
those troops out of country. Once troops have left Afghanistan, 
it's almost impossible to get them back in. But, transition is 
much like that children's game, Jenga, you know, where you have 
the stack of wooden blocks, and you pull one out, and the 
structure becomes unstable, and you sort of see if it 
stabilizes, and then you try and pull another one out. It's an 
experiment. And as you go ahead with the drawdown of forces, 
the security environment changes in unpredictable ways, at the 
district level.
    So, I think we're going to see significant transition 
activity, beginning this year. We are already seeing very 
significant progress in security in the last 18 months. Whether 
and how that translates into a drawdown of troops, I think is a 
different matter. But, we should certainly expect to see some 
drawdown this year and very strong progress toward drawdown by 
2014.
    Senator Udall. Dr. Kilcullen, doesn't it worry you at all--
you talk about NATO, but it looks like the major NATO forces 
are coming out much sooner than 2014. The British and the 
Polish, aren't their deadlines this year or next year?
    Dr. Kilcullen. The British deadlines, actually, are April 
2015, which is the next British election, so that--the British 
will be there, Australians have already said that they'll be 
there, the Canadians have----
    Senator Udall. All the way to 2014.
    Dr. Kilcullen. Absolutely, yes.
    Senator Udall. OK.
    Dr. Kilcullen. The Canadians have already pulled out. But, 
the----
    Senator Udall. The Polish?
    Dr. Kilcullen. I'm not aware of their specific deadline. 
Other members of the panel may be.
    Senator Udall. Yes, OK.
    Dr. Kilcullen. Yes.
    Senator Udall. OK.
    Dr. Kilcullen. But, I think it's not a matter of the 
coalition collapsing around us; it's a matter of very 
significant military progress not matched by the political and 
reconciliation progress that needs to go with it if you 
actually want to get to a sustainable state in 2014. The issue 
is not about military success; it's about sustainability of 
progress after the military forces begin to come out.
    Senator Udall. So, it's a combination of nation-building 
and the kind of effort we're talking about, that I think Dr. 
Jones talked about, the particular area, up on the border, 
where al-Qaeda is partnering with tribes in those regions. I 
mean, are we putting in the resources we need to put into that 
area? It sounds like you're saying this is the area where all 
of these folks are at. Why aren't all our resources focused on 
that area--and the Afghan troops and to--why aren't we having 
that be our primary focus, if this is what our mission is, is 
to defeat al-Qaeda and the people that are partnered with them?
    Dr. Jones. Well, I think our forces are primarily focusing 
on two areas. One is RC East, Regional Command East, where 
these areas are. And second is the Taliban's command and 
control, down in Regional Command South. So, I think, in that 
sense, our priorities are roughly accurate.
    What I would also note, in--and you refer to ``nation-
building''--is--and this goes back to a comment we had 
earlier--I would strongly, strongly suggest that, both 
historically and presently, the answer is not only a central 
government in Afghanistan. In my view, that is an ahistorical 
Westernized approach to understanding Afghanistan. And I would 
argue that, as we look at transition, some of the more 
successful areas, ones that don't get a lot of media 
attention--Uruzgan--Uruzgan province has largely transitioned 
from Taliban control in most of the districts to allied 
control. These are allied, both Ghilzai and Durrani Pashtuns, 
with a very small special forces--these are Operational 
Detachment Alpha--footprint. They've rebelled against the 
Taliban. That's part of, I think, a transition. And, in that 
case, it's not a central government presence through all of 
Uruzgan or Arghandab, in Kandahar, or Panjwaii, now, in 
Kandahar; it's a notable local presence as well. In fact, 
that's, I think, what we missed, for 9 years, from our strategy 
in Afghanistan, that General Petraeus has more recently added.
    Senator Udall. But, isn't it true the central government 
doesn't like that trend? They see that as a threat.
    Dr. Jones. I would say it was actually President Karzai 
that supported the creation of this program, in the summer of 
2010.
    Senator Udall. But having militias and locally armed 
operations, I think he's very wishy-washy on that. I----
    Dr. Jones. Well, I think that the concern, in my 
discussions at the palace, has been, if these forces are 
operating against the central government, that is the most 
significant concern, and if they are large and offensive. That 
has definitely not been the case in any of the areas I'm 
talking about. These are village-level, small, tribal/subtribe, 
community-level forces. These are not militias, as the term is 
generally turned.
    Senator Udall. Senator Kerry, sorry I've run over so much 
here.
    The Chairman. No, no----
    Senator Udall. I know Dr. Biddle wants to say something.
    Dr. Biddle. Notwithstanding what Dr. Jones pointed out, I 
think it is fair to say, as a general matter, that the Karzai 
government has not been as enthusiastic about decentralization 
as we have been, in various respects, which brings us back to 
the point that Dr. Kilcullen mentioned earlier, which is the 
relative priority we place on the security effort, as opposed 
to the governance reform effort. I think the political strategy 
in the theater to induce a Karzai government, which is 
currently substantially less enthusiastic than we are about 
decentralization, to move in the direction we would like them 
to move is a tremendous unmet priority right now.
    I think, for understandable reasons, the theater command 
has tended to believe that it needs to show early progress in 
security; and that is indeed a requirement. But, I think if 
what we do is to prioritize security to the point where we 
simply kick the can down the road on the eventual requirement 
to deal with governance issues, we run the risk of undermining 
the security improvements that we're buying at such great cost 
today.
    So, to the extent that we need to change priorities in the 
conduct of the campaign, a change I would like to see is an 
increased emphasis, and an earlier priority placed, on doing 
the things we have to do in order to fill in the missing 
implementation guidance on how we're going to improve 
governance.
    One last point, in due defense of the administration on the 
2014 date, I think one way of thinking about it is that the 
deadline has moved somehow from 2011 to 2014. But, if one's 
going to be fair to them, what this really represents, I think, 
is a greater degree of specificity, still substantially 
lacking, on what the end state is supposed to be. The original 
announcement was that what was going to happen in July 2011 was 
the beginning of something; it was very vague as to what the 
end of something looked like. There was no indication, at the 
West Point speech, of whether what began in 2011 would end by 
2013, 2014, 2050. I think what the administration has gradually 
been doing is painting a slightly more detailed picture of what 
happens later. I think, however, a substantially more detailed 
picture than that is needed, for all sorts of reasons, both 
strategic and, I suspect, political.
    Senator Udall. Thank you, Senator Kerry.
    The Chairman. Thank you, Senator.
    Let me come back to a couple things. I want to check on 
some history here. Is it accurate that during the ramp-up to 
the initial beginning of the war, under George Bush, that 
Mullah Omar offered up Osama bin Laden, providing he was 
transferred to a third country, Arab country? Anybody?
    Dr. Jones. My understanding is CIA chief of station in 
Islamabad sat down for talks along the border, offered that 
alternative, and that was rejected by the Taliban. That's my 
understanding.
    The Chairman. And then, subsequently, when the bombing 
started, was there not an offer made, at that point, to give 
him up? You're not sure?
    Dr. Jones. I'm not aware of----
    The Chairman. OK.
    Dr. Jones [continuing]. Such an offer.
    The Chairman. By Mullah Omar? By the Taliban?
    What I'm getting at is, some people in the region have 
suggested that the Taliban have been somewhat chastened by this 
dislocation and loss of power, and by the loss of personnel 
that has taken place. And there are arguments made, by some, 
that the Taliban would not, in fact, welcome al-Qaeda back, 
because they're more interested in their own political power 
and possibilities within Afghanistan itself. Can you comment on 
that?
    Dr. Kilcullen. I'd like to just offer some data. I want to 
add one historical point to your historical comment, Senator.
    The Taliban, in fact, surrendered after the fall of 
Kandahar, in 2001. Roughly 20 al-Qaeda--I'm sorry, Taliban 
senior leadership of the Quetta Shura signed a letter, which 
was delivered to President Karzai, by people, including Mullah 
Baradar, Mullah Dadullah Lang, Haji Zahir, all pretty well-
known names, in terms of leading the Taliban now. Mullah Omar 
moved into Pakistan, but the majority of the leadership of the 
Kandahar Taliban actually surrendered to the Karzai government, 
acknowledged the authority of the Karzai government, and went 
back to their properties inside Afghanistan and tried to live 
in peace for a period after 2001.
    What happened after that was what I would characterize as a 
failed peacemaking activity, where we continued our focus on
al-Qaeda, now in Pakistan, and a number of actors in the 
Afghanistan environment, who were former mujahideen leaders, 
longstanding enemy of the Taliban, went after these people who 
had surrendered to settle scores. And, over about a 2-year 
period, most of the people who signed that surrender document 
fled, under the threat of torture or execution or abuse by 
these power brokers, into Pakistan and gradually reformed their 
organization. The Quetta Shura wasn't even formed until October 
2003; that's 6 months after the invasion of Iraq.
    So, there's an Afghan history, here, that we need to think 
about that's more recent than, you know, the 19th century, 
about why these guys are actually fighting. And----
    The Chairman. That's what I'm--that's exactly what I'm 
trying to get at.
    Dr. Kilcullen [continuing]. It has a lot to do with the 
perception of injustice.
    The Chairman. Right, lack of justice.
    Dr. Kilcullen. Yes.
    The Chairman. Justice is really the framework of what drove 
the original Taliban, is it not?
    Dr. Kilcullen. It certainly is. The Taliban initially was 
an armed vigilante movement.
    Some people may be aware of a Afghan Border Police officer, 
called Abdul Raziq, who currently runs operations down in Spin 
Boldak, in southern Kandahar. His father, Mansour al-Raziq, was 
a famous and famously abusive warlord in the Kandahar area. He 
was the first warlord to be executed by the Taliban, in the 
early 1990s; they hanged him from the barrel of a tank on the 
Kandahar Road. And I think that indicates some of the problem 
right now, in that the people that are working with us most 
effectively on the ground are, in some cases, longstanding 
enemies of the Taliban precisely because they abused the 
population and the Taliban attacked them in the early 1990s.
    To your second question, I've actually had the opportunity, 
over the last 7 years or so, to speak with a large number of 
Afghans in the field, including some very closely aligned with 
the opposition. What you tend to get from them is a statement 
to the effect that, ``We don't like the Pakistanis, we don't 
like living in Pakistan, we don't like al-Qaeda, the worst 
thing we ever did was bring these Arabs into our midst who 
caused this problem and brought the international community 
down on us like a ton of bricks.'' And they will say, ``Look, 
we're willing to swear off allegiance to al-Qaeda, we're 
willing to promise not to be a threat to any other country, 
we're willing to consider all kinds of reforms to Afghan 
governance, but we need foreign troops to leave the country.''
    You've got to put a huge grain of salt on comments like 
that from people within an organization that's very diverse and 
disorganized, in the way that the Taliban is. But, you do get a 
similar kind of theme from lots of different people, who 
basically say, ``Look, we recognize that we screwed up in 
bringing al-Qaeda into Afghanistan. We've learned our lesson. 
Can we come back, now, and be part of a future solution?''
    The Chairman. So, just playing devil's advocate here, if 
you're looking at our interests, our interests are to prevent 
us from being attacked again--then we need to have a sufficient 
level of stability. But, that stability, it seems to me, is not 
going to come until you have some capacity for this justice and 
for different groups to be adequately represented in the power 
structure.
    Dr. Kilcullen. I think that's a very good way to 
characterize it. Another way to think about it is exclusive 
versus inclusive security. If you try to exclude groups from 
the security process, then you create spoilers who are going to 
attack that security process. If you try to make it inclusive, 
that's a much more complicated and longer term, messier 
process, but it ultimately has a higher chance of success.
    The Chairman. Why, then, is our current presence structured 
as it is, in support of Karzai and the central government, but 
not politically adept enough or inclusive of these other 
efforts? Is that not doomed? We are plunking down a whole bunch 
of money for a long, long period of time because we're 
basically backing one set of people within an internal civil 
conflict. But perhaps our interests could, in fact, be 
satisfied differently?
    Dr. Kilcullen. I want to defer to Dr. Jones, here, because 
the points that he's been making about the Afghan local 
policing initiative, I think, are very important.
    There's a second component to it--the village stability 
operations--which is, in fact, a political component about 
village-level and district-level political stability. And I 
think that United States forces in Afghanistan have, for a very 
long time, been pursuing an inclusive security model, trying to 
get the majority of actors, at the village and district level 
involved in local-level peace deals involving security 
commitments on all sides to create, if you like, a resilient 
structure that resists the Taliban. The problem that we have is 
in connecting that to our Afghan Government partners who, as 
you noted, have different interests. And I think that's part of 
the problem.
    The Chairman. To what degree could Iranian interests, which 
are not aligned with the Taliban and also don't appreciate the 
drug trafficking, and to what degree could Russian and/or some 
of the `Stans be brought to the table here? Is that a 
possibility?
    Dr. Kilcullen. I think that it's certainly a possibility. 
And I would add China to that mix. China has----
    The Chairman. China, too.
    Dr. Kilcullen [continuing]. An incredibly strong economic 
and geopolitical interest in the stability of Pakistan.
    The Chairman. And how do you see them being able to play 
that role? What could you see, strategically, being the 
framework that brings people together?
    Dr. Jones. Well, I think, on the Iranian front, the 
Iranians have been helpful, in some ways, in providing a range 
of development assistance in the west and in parts of 
Hazarajat, in the center of Afghanistan. They have a vested 
interest, over the long run, in my view--and they've showed 
this, historically--of developing a range of energy ties with 
Afghanistan, and of pushing strongly for the prevention of a 
Taliban-governed Afghanistan. So, I think the Iranians actually 
have a quite helpful role to play.
    I would caution that the problems we're going to have in 
trying to bring everybody together are, their interests do 
diverge somewhat. So, if one looks at the Russian--the primary 
Russian support networks tend to be with the Uzbek and Tajik 
communities of the north, not with the Pashtun communities in 
the south, which largely are Pakistan's support networks. So, 
at some point, for example, reconciliation discussions may be 
supported by Pakistan, but generally aren't going to be 
supported by the Russians and their Tajik and Uzbek support 
networks. So, in that sense, there are going to be clear 
friction points in some aspects of trying to bring regional 
countries together.
    The Chairman. Senator Lugar.
    Senator Lugar. As a followup to that, in the past, we've 
talked about warlords, and the respective areas in which they 
were the leaders, and the continuing impact of this on the 
ability to govern Afghanistan from the center. When discussing 
this, we've also kept in mind the difference between the 
Pashtuns of the south and east and the myriad other groups 
spread throughout the country. With this in mind, 
hypothetically, what does political Afghanistan look like? Is a 
stable Afghanistan one in which we return to more localized 
government of sorts, with the warlords--the regional leader--
who are more akin to the countries north of Afghanistan? Or is 
it closer to an Iran or even to the Pashtuns in Pakistan, in 
control of specific parts of the country?
    This apparently was the case in Afghanistan for a long 
time. And, as all of you pointed out, Afghanistan was never 
very self-sustaining, in terms of economic support or political 
support. It was always buttressed by these alliances across the 
various borders. We've favored President Karzai and a central 
government and the idea that there would be national elections, 
a national Parliament, and so forth, in a manner somewhat akin 
to our traditions. But, is the former situation one that is 
ultimately more promising, in terms of this political stability 
we're talking about today?
    Dr. Biddle. Well, I think, when Afghanistan has been 
stable, it's because there was an equilibrium relationship 
between the periphery and the center that obeyed a set of deals 
such that each side had a realm of autonomy and each side had a 
set of limited obligations toward the other.
    The problem we're in now is we have a substantial 
disequilibrium, in which the periphery is too little 
constrained and is preying upon the population in the areas in 
ways that give the Taliban access to population centers and 
undermine our efforts. Some degree of reestablishment of a more 
stable equilibrium is necessary.
    Now, the original 2001 plan recast that equilibrium 
radically in favor of the center. And I think that's proven to 
be unstable. To recast it radically in the direction of the 
periphery is where we're going now, by default. And it's not 
working very well for us, either.
    I think what we need to do is find something between the 
radical empowerment of local power brokers that we've fallen 
into by accident since 2001, and the insistence on an 
unreasonable degree of centralization that we adopted at 2001. 
I think there are a variety of ways to think about recasting 
those bargains in ways that would make them more sustainable. 
Part of making them sustainable, however, is going to be 
resource input from outside the system, which probably means 
from us. For the center to be able to enforce any set of 
redline restrictions on the behavior of local power brokers, 
it's going to have to have sticks at its disposal and it's 
going to have to have carrots at its disposal. Its ability to 
raise revenue sufficient to make the carrots sweet or the 
sticks harsh is very limited. I think, if what we're going to 
aim for is a reestablishment of a more plausible balance 
between the center and the periphery in Afghanistan, we or 
others in the international system are going to have to empower 
the center in such a way that it can offer a mix of sticks and 
carrots that are persuasive enough to reestablish the kind of 
bargains that existed in the Musahiban era.
    Senator Lugar. Well, Dr. Biddle, what you're describing is 
a situation, which you all touch upon, and that is considerable 
continued economic support from the United States. As you've 
stated, the necessary revenues will not be forthcoming on the 
Afghan side. And so, as we discuss this situation with our 
constituents and the Congress, we're talking about a stream of 
expenditures well beyond 2014. And this isn't often discussed 
very publicly, except in this committee, when we bring it up, 
because it is difficult, politically, given the arguments that 
we're having with regard to our current budget. But, in any 
event, it's important to try to get an idea on what is likely 
to bring about this stability that we're talking about.
    Now, you've all also raised the question of--which is not 
necessarily frightening--but President Karzai's term of office 
comes to an end in 2014. We don't really know, as we've 
discussed Pakistan and the impact there, when terms of office 
come to an end or, how power is sorted out there. So, even as 
we're talking about the stability, from our standpoint today, 
there is a potentially unstable political framework in terms of 
who runs these countries and their interactions with each 
other, to say the least. This is beyond our ability to solve, 
here in this hearing or in this committee, but it's an 
important factor to be considering as we discuss the future 
commitment of our own resources to the region.
    We already have real problems, in terms of delivery from 
the Karzai government, not to mention the problems of Kerry-
Lugar-Berman in Pakistan, which are so difficult. With regard 
to Kerry-Lugar-Berman, we've spent only $179 million out of 
$1.5 billion in the whole year, on four projects, due to lack 
of confidence in anybody administering these funds or more 
fundamentally, disagreements regarding what we should be 
spending the funds on to begin with.
    So, I just raise this as background for a dilemma. We 
finally get back to the thought that we're involved in all of 
this because we don't want people plotting attacks on the 
United States of America in Afghanistan, Pakistan, or the 
surrounding territories. And so, the basic question still is: 
What is the best route to prevent this? How much involvement, 
how much expense, for how long?
    Yes, Dr. Jones.
    Dr. Jones. Sir, if I could make a brief comment on that and 
to come back to this justice issue.
    I think one unfortunate reality, for much of the last 10 
years, even on the justice front, is the choice we gave--and I 
sat in Shuras, in villages, giving Afghans this choice between 
central government justice--that is, a court system that was 
nonexistent in their areas--and a Taliban shadow court. Well, 
as part of--and Dr. Kilcullen mentioned this earlier--the 
village stability operations portfolio that President Karzai 
signed, General Petraeus has been a major supportive of, is--
the choice now is what Afghans have been doing generations, and 
that is supporting justice, in rural areas, through Shuras, 
informal decisionmaking.
    There is an answer here. This is the component that Dr. 
Biddle mentioned earlier. The 50 years of stability, between 
1929 and 1978, that has been a key, key part of it.
    And, even on the dollar sign, just to give you an example, 
roughly the average cost for Afghan National Security Forces, 
for an individual, that's a combined police and army, is about 
$32 million per year. For the local police it's $6,000 per 
year. We're actually talking about fairly small amounts of 
money: $10,000 Afghan local police, $60 million. That's 
actually--and we're seeing, I would argue, major progress in 
the south on this issue. The U.S. Government assessments 
indicate this.
    So, I would say some of the progress we've had, in the 
south, is actually coming with a very small expense.
    Dr. Biddle. By way of brief amplification, with respect to 
the cost of what would be required to keep Afghanistan stable 
in the long run, again, it's important to distinguish between 
wartime costs and peacetime costs. If we look back to what 
Afghanistan absorbed from the international system in aid 
during a period of stability in the mid-20th century, it was 
typically receiving something in the order of $200-$300 million 
a year, from all sources, in 2011 dollars. Relative to what we 
are now spending to wage this war, that is extraordinarily 
cheap.
    Even if you raised that, to account for the needs of 
wartime reconstruction or a different Afghanistan or other 
requirements, by a factor of ten, it would still be at a small 
fraction of what we spend today. I think the investment 
required of us to sustain an Afghanistan in the long term, 
relative to what we're spending now to create an uncertain 
outcome militarily, would be a modest investment.
    If we decide that we are unwilling to make that commitment, 
that we are unwilling to make that investment in the long-term 
post-conflict stability of the country, we will, I think, with 
high probability, get an opportunity to run the social science 
experiment and see what happens if Afghanistan collapses and if 
Pakistan is then affected.
    Senator Lugar. Well, I thank you, each----
    The Chairman. Thank you.
    Senator Lugar [continuing]. All of you, for tremendous 
testimony. This is very helpful to us.
    The Chairman. I think, obviously, everybody would opt for 
that expense, if we knew we could get there. The question is, 
``Do we have the political framework to get there?'' which we 
want to come back to.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And I apologize for having missed most of this hearing. I 
had to preside. So, hopefully I won't repeat some of the 
questions that have already been raised.
    And I think this follows the line of discussion that you 
were having with Senator Lugar. As we look at what it will take 
to sustain the Afghan security forces at their current levels, 
obviously we're on an unsustainable course, given that, at the 
current level--or the target level, it would require about $10 
billion a year. And the Afghan Government takes in about $100 
billion in revenue a year, so obviously there's a disconnect 
there.
    So, I guess I want to start with a couple questions. First 
of all, we heard, in--I think, both in this committee and in 
Armed Services, that there is consideration of increasing the 
target number of Afghan security forces from 305,000 to as high 
as 378,000. My first question is: Do we really need to do that? 
And is that a realistic number? And then, what are the 
prospects, given particularly what you said, Dr. Jones, in 
terms of funding that level of security forces, of the United 
States ultimately footing the bill, if that's what we do? And 
obviously that's a concern that I would have.
    So, I don't know who would like to address that first.
    Dr. Kilcullen.
    Dr. Kilcullen. Yes--yes, Senator.
    I think we've covered this, to some extent, but just to 
rehash. I think that--do we need to do it? Yes, we probably do 
need to do it. Because, if we lose the war, then all the money 
we've spent so far will be to naught. Can we afford it? That's 
the purpose, I think, of focusing heavily on the drawdown right 
now. The war--roughly 80 percent of the cost of the war is the 
cost of U.S. combat involvement. Another 10 percent is ANSF 
development, and another 10 percent is civilian assistance. So, 
we could get to a much, much more sustainable position, by 
drawing down U.S. forces by 2014, that would allow us to buy 
some time.
    The devil in the detail, from my perspective, is the issue 
of demobilization. If you expand the Afghan security forces to 
375,000 in order to win the combat phase of the war, what are 
you doing with all those armed guys afterward? And what's the 
plan for actually putting them into productive economically 
fruitful labor, rather than having them on the street with 
weapons? That has traditionally been the Achilles' heel of most 
foreign security assistance programs of this type. It's 
something that people in Afghanistan are well aware of. But, 
it's something that we really need to engage with, I think, as 
a priority problem as we get closer to 2014.
    Senator Shaheen. So, you, then, agree with the assessment 
that we need to increase the Afghan security forces to about 
the 375,000 level.
    Is that something that everybody else on the panel agrees 
with?
    Dr. Jones. Yes, I do, with two caveats. One is, assuming 
that also triggers an American drawdown in numbers of forces. 
That is, the Afghan National Security Forces are coming up as 
the United States numbers are going significantly down. And 
second, just to add to that, the additional part of that number 
was--and this is in addition--up to 30,000 Afghan local police. 
So, this is both a top-down national security force and a 
bottom-up local police.
    Dr. Biddle. I believe it's appropriate and economically 
efficient to increase Afghan National Security Forces, given 
their cost advantages over ours, subject to provisos, of 
course; one being, to amplify Dr. Kilcullen's point, that 
demobilization needs to be planned for during mobilization. 
Postponing that as a consideration that we'll deal manana is 
dangerous. And I think, to NTMA's credit in Afghanistan, they 
are now doing, for example, literacy training that is designed, 
in part, to enable an eventual reabsorption of this force into 
a productive economy as it builds down. But, more generally, I 
think a fair criticism can be made that we aren't devoting 
enough attention to systematically thinking about the build-
down process, to avoid having this institution become a source 
of instability once the war turns less violent.
    The other proviso I would offer, however, is that there's a 
strong tendency, both in the United States and in theater, to 
see the problem of building an indigenous military force in 
Afghanistan in quantitative numerical terms. Do we have enough 
police? Do we have enough soldiers? Do we have enough trainers? 
Do we have enough ranges?
    When you look at the history of military performance of 
developing-world armies, I would submit that very rarely does 
failure occur, when it occurs, because they didn't have enough 
training courses or enough rifle ranges or enough advisers. 
When developing-world militaries fail, it seems to me, it's 
typically because the officer corps becomes politicized and 
corrupted, because the society with which they are embedded is 
politicized and corrupted, and militaries tend to be products 
of the society that produces them. A corrupt officer corps 
cannot command effective combat behavior from its troops.
    I think, in general, it would be to our advantage to pay 
more attention to the problem of the politics of Afghan 
security force development, rather than simply the numerical 
issues of, ``Do we have the training regime filled with the 
necessary number of trainers, or not?'' and to devote the 
intelligence resources in theater that are required in order to 
understand the question of the political orientation of the 
officer corps that we're creating, and to fit it into the 
context of similar examples elsewhere, and understand whether 
or not we're headed toward the development of an institution 
that's as professional and politically disinterested as we hope 
it is, or whether we're headed toward an institution that looks 
more like the history of other similar organizations in other 
places and times.
    Senator Shaheen. Let me change subjects, before my time is 
up, because last week, during our hearings, a few of the 
witnesses suggested that bin Laden's death would give some 
opportunity for further, or more, negotiations with Taliban 
members in Afghanistan to renounce al-Qaeda. Do you agree with 
that assessment? And is there any evidence, at this point, to 
indicate how they might be reacting?
    Senator Shaheen. Dr. Kilcullen.
    Dr. Kilcullen. We saw some pretty immediate commentary, by 
Taliban in Afghanistan, about the killing of Osama bin Laden. 
And it's interesting to look at that commentary and see how it 
differs in different groups in the Taliban. The Taliban, or ex-
Taliban, representative on the High Peace Council came out 
pretty quickly and said, ``Look, this will create a sort of 
circuitbreaker, and this will create the opportunity for people 
who wanted to negotiate, but felt like they couldn't abandon 
al-Qaeda while Osama bin Laden was alive, to really see that as 
an opportunity to move on.''
    Some junior commanders, a Taliban commander in Loya Paktia, 
which is southeastern Afghanistan, at the, sort of, field 
level, called in and said, ``Look, these guys are Arabs. We're 
Afghans. We have a different jihad from them. We admired and 
respected Osama bin Laden, but it doesn't make any difference, 
we're just going to keep fighting.'' And I think there's a 
significant element in which the younger generation of 
fighters, forward in Afghanistan, have a different attitude 
than the leadership group back in Pakistan.
    And then the third thing that happened was, Muttawakil, 
who's the former Taliban foreign minister, came out and said, 
``Actually this will increase our desire to fight.''
    So, there's actually very different point of view coming 
from different parts of the Taliban.
    I think what we're going to see, however, is the 
acceleration of various processes that have already started in 
al-Qaeda, that the power of the central group will be diluted 
somewhat as we get into an internal power struggle, where 
people are struggling to see who will replace Osama bin Laden 
at the central leadership level. Dr. Jones already referred to 
some, but I'd add Saif al-Adel to that group, head of the 
military committee. Abu Yahya al-Libi's already been mentioned. 
It's not always appreciated quite how divisive a figure Ayman 
al-Zawahiri is within al-Qaeda. So, I think it's quite likely 
that they may turn inward and spend some time organizing 
themselves. And that actually does create a window of 
opportunity.
    But, I think we also should recognize that a lot of people 
that support the Taliban--sorry, support al-Qaeda, in Pakistan, 
do so for economic reasons. These are business deals. And I 
think that there's a lot of other things that go into the mix, 
other than simply, you know, Pashtun honor and politics.
    Senator Shaheen. Thank you.
    Dr. Jones. Very briefly. I think, one issue is, this is--
this is partly an intelligence question, so that is--that is, I 
will pose this as, What does our intelligence now say about 
that relationship? The second part of that, and the more 
concerning element, is, when we say ``Taliban,'' that obviously 
includes a range of different militant groups. The strongest 
ties have often been--especially recently, with the Haqqanis in 
North Waziristan, Siraj Haqqani and some of the senior al-Qaeda 
leaders, including Ilyas Kashmiri. So, elements of the Afghan 
insurgency, I suspect, will continue to keep a relationship--a 
senior-level relationship with al-Qaeda, despite the death of 
Osama bin Laden.
    But, I think the onus is now on the Taliban itself and its 
inner Shura. Give them a chance to break--they have the 
opportunity now--are we giving them a chance to break ties and 
actually demonstrate that? And so, I would say they have an 
opportunity now. Show us.
    Senator Shaheen. Thank you.
    The Chairman. Thank you, Senator Shaheen.
    Unfortunately, I have a 12 noon meeting with Senator McCain 
and some others, and I need to leave. Senator Corker is going 
to close out the hearing, or Senator Shaheen, if they both want 
to continue.
    What I'd like to do is leave one question on the table. And 
I would like you to answer it, for the record, with Senator 
Corker. And that is, I'd like each of you to speak specifically 
to the political solution. In the absence of a military 
solution, I want each of you to give your vision of what is the 
political solution and how you, specifically, arrive at it. And 
I'd like you to lay that out.
    And again, I appreciate, enormously, your coming in today. 
It's been very, very interesting. It really scratches the 
surface in a number of areas. What I'd like to do is ask you if 
you'd be willing to come back sometime, to have a discussion 
with members who might like to take part in it. We could have a 
little more back-and-forth and really dig into some of this 
stuff, in a nonhearing atmosphere. So, if you'd be willing to 
do that, I think it'd be very helpful.
    Thank you for doing that.
    But, if you'd answer that question, for the record, about 
your vision of that political settlement, that'd be very 
helpful.
    Thank you.
    Dr. Kilcullen. Nobody seems to want to go first, so I'll 
throw myself on that particular grenade.
    I think we should look at the coming constitutional crisis, 
in 2014, as an opportunity as well as a problem. When President 
Karzai's last term ended, which was April 2009, there was a 
long hiatus before the elections in August 2009, and then a 
long period before he finally began his second term in November 
2009. Depending on how you define the start and end of his 
term, his time as President either comes to an end in April 
2014 or in November 2014.
    So, at some point in 2014, he's gone as President of 
Afghanistan, unless there's a significant change to the Afghan 
Constitution. And it's quite likely that some people associated 
with the President may be thinking that that's a good idea at 
this point, that, for the future stability of Afghanistan, for 
the future interests of their part of Afghan politics, it makes 
sense to change the arrangement so that he can remain in 
office. There are other people--in the Parliament, in 
particular--who are deeply opposed to that idea. And I think 
that that actually creates the opportunity for us to revisit 
some of the aspects of the constitutional makeup of the Afghan 
state that have really contributed to the problems that we've 
seen.
    When I say ``us,'' I mean, however, Afghans. You know, we 
have to set the condition under which Afghans can have that 
discussion themselves. In 2002, at the time of the Bonn 
Agreement, the country was still smoking, and there just wasn't 
the ability to bring together a large enough group of people to 
represent the range of interests in Afghanistan, and to have a 
genuine discussion about what's the appropriate way forward.
    And so, to some extent the international community imposed 
a solution, which centralized power in the hands of a person 
too weak to exercise that power on his own. And so, he had to 
make a series of deals with power brokers across the Afghan 
environment. And, having done that, it's now very difficult for 
him to make the structure work. I think we should have some 
sympathy for President Karzai, given the circumstances that he 
was handed.
    But, I think there's an opportunity to change that now, to 
relook at those issues. Issues, like, for example, the failure 
to authorize the creation of political parties. There's no 
political parties in Afghanistan. The only thing that really 
represents the sort of large-scale mass social movement that 
generates leadership as an American political party does is the 
Taliban. Legitimate political parties don't exist in the 
environment in Afghanistan.
    The other factor is the Northern Alliance. And I think it's 
all too easy to talk about a negotiated solution. But, if that 
solution leaves out the Northern Alliance, if people in the 
other ethnic groups believe that they're going to be sold down 
the river as the result of a cozy deal between the Taliban and 
the international community, that's a recipe for future civil 
war in Afghanistan. So, I think there's an opportunity coming 
to seize that constitutional crisis and turn it into a more of 
a review of the makeup of the Afghan State. And I think, to the 
extent that we can get Afghans to buy into that process, rather 
than imposing it from outside, we have a much better chance of 
creating a sustainable governance structure.
    Dr. Jones. Couple of key points on--this a very important 
discussion.
    First, let me just say, to preface my remarks, that I do 
not think we can assume a settlement will work. Both the 
history in Afghanistan, multiple efforts in the 1990s, brokered 
by the U.N., did not work and succeed in a successful 
settlement.
    Second, as part of that, most of the serious works on the 
end of insurgencies and civil wars indicate, at best, a 50/50 
chance that it ends with a settlement. Many end with a military 
victory, by one side or the other, depending on which work you 
look at.
    Nonetheless, I believe it's important, actually, to push 
forward on settlement discussions. And a few comments along 
those lines.
    First, what will be important is who is the third party 
that is helping broker the deal. I think, frankly, this is a 
role where some organizations, like the U.N., may be able to 
play a useful role, depending on who the individual is. 
Possibly somebody like Lakhdar Brahimi, who appears to have 
some support among both sides, maybe somebody viewed as 
trustworthy.
    Second, and as part of that, Pakistan has to be involved in 
any discussion. Based on the amount of assistance, both direct 
and indirect, they give to insurgent groups, they have to be a 
participator in the discussions, as, obviously, does the United 
States.
    In addition, I would argue and support the construction 
even of an overt Taliban political wing. This seems to have 
been a necessary component of any deals made in northern 
Ireland, in a range of other contexts, in El Salvador, of an 
overt political wing, whose individuals are identified as 
supported. They can travel. So, in that sense, that may rethink 
some of the U.N. and other blacklists with a political element. 
And then give them a chance.
    Now, how a political settlement could transpire, there are 
multiple avenues, but I would say those are key steps that have 
to be thought through: a, assuming that it may not work, so the 
military front should still be pursued; think very carefully 
about the third party, including the role of other states in 
the region, including Pakistan; and then supporting a political 
wing. This is, in my view, actually would be quite helpful.
    Dr. Biddle. I think there's an important relationship 
between the political end state that we seek in Afghanistan and 
what we can do with respect to negotiations. If we insist on 
something that looks like the 2001 design, that makes it very 
hard to see what's in it for the Taliban in any possible 
settlement. The Taliban are not a broad-based popular movement 
in Afghanistan. If the most they're offered, in any prospective 
settlement negotiation, is the opportunity, perhaps, to run for 
office on an equal basis with any other candidate in a highly 
centralized national system where they have to compete on a 
national basis, their ability to command seats will be very 
limited. And it's hard to see how they would see this as being 
worth making compromises to accept.
    I think, almost certainly, the direction of change, with 
respect to Afghan political end states, is likely to be in the 
direction of decentralizing nominal authority, but centralizing 
actual power, relative to what it's become by 2011. At the 
moment, we have this radical dysjunction between a paper 
blueprint for how the country is supposed to be run, which 
assigns almost all governing authorities of any consequence to 
Kabul, and the actual distribution of political power in the 
country, which is mostly in the hands of peripheral warlords 
and power brokers that tend to tie the hands of Kabul to an 
important degree.
    I think the right way forward, in terms of thinking about 
what we can live with as an end state, is shifting the nominal 
powers of governance outward, but establishing enforceable 
limits on the behavior of peripheral authorities, such that we 
can keep them within bounds that don't create radical public 
dissatisfaction with a predatory form of local governance.
    And I suspect that the key bounds that we need to pay 
attention to are: first of all, with respect to our national 
security interests involved, we have to ensure that local 
authorities in Afghanistan obey the foreign policy of the 
state, which is designed to prevent them from establishing safe 
havens for cross-border activity by militants, insurgents, or 
terrorists.
    Second, we have to prevent them from preying on their 
neighbors locally.
    But, third, and importantly, we need to cap the corruption 
take by local officials in ways that remove what is currently 
often an existential economic threat directed at local victims 
by powerful networks of malign officials. And I think a key to 
doing that is establishing a redline restraint at the taking of 
land. In an agrarian society, land and its control represent 
the ability to feed your family or a threat of starvation. One 
of the most damaging forms of predatory governance behavior in 
Afghanistan today is land-taking by networks of corrupt 
officials for the benefit of the network, which then drives the 
victims into the arms of the Taliban.
    I think that if we establish a series of what amount to 
reconfigurations, through deals, of the relationship between 
the periphery and the center that say, ``As long as you avoid a 
collection of activities that will yield enforcement action, 
prominently including the illegal taking of land, we will allow 
you a sphere of autonomy to do what you wish in other domains, 
but that if you violate any of the explicit terms of the 
agreement, then you can expect enforcement activity from the 
center,'' we, then, need, again, to be able to provide the 
resources to the center to enable and to enforce that deal.
    If we arrive at a more practically recast bargain between 
the periphery and the center, that, in turn, opens up 
opportunities for a reconciliation negotiation with elements of 
the Taliban in which, for example, they could be offered things 
like seats in Parliament, position as a legitimate political 
actor within the society, either as a party or as individuals. 
And you could imagine there at least being the terms for a 
conversation with different Taliban factions about under what 
conditions might they be willing to renounce
al-Qaeda, lay down arms, and come into the government.
    As a final point, with respect to the nature of that 
conversation with the Taliban, I think it's important that we 
regard both the prospective political role of the Taliban in a 
possibly reconfigured Afghan state and the military presence of 
foreign powers as negotiable. At the end of the day, a 
permanent U.S. military presence in Afghanistan is primarily an 
instrument, or a means to an end, of a stable South Asia.
    It seems to me that, if we regard it as a means to an end, 
and not as an end of superordinate importance because of the 
consequences for power-projection capability of a United States 
base in Afghanistan, we need to be able to treat it as part of 
a negotiation with the Taliban, especially given the centrality 
of concerns with long-term foreign military presence in 
Afghanistan, in at least the things that the Taliban have been 
telling us to date.
    Senator Corker [presiding]. Thank you.
    I know time's limited. I do--the issue you're talking 
about, about, basically, redlining behavior--And, you know, 
it's--I think all of us who go there are frustrated by the 
sense, it feels like we're fighting the Mafia, in many ways. 
And our soldiers are really fighting criminality mostly on the 
ground. I mean, that's mostly what's happening. But, the 
cultural aspect that you're talking about, about the takings of 
land and all of that, is that something that is Taliban-bred, 
or is that something that's just part of theAfghan culture, in 
general?
    Dr. Biddle. I don't think this is cultural. I think this is 
largely a response to fairly recent events in Afghanistan since 
2001; and especially the handing off, from the United States to 
NATO, of responsibility for the mission in 2003, and Afghan 
perceptions, in more recent years, that the United States lacks 
the will to bring this to a successful conclusion and is 
heading for the exit. Those perceptions lead to an expectation 
of abandonment and create what political scientists sometimes 
refer to as a ``negative shadow of the future,'' in which 
people who believe that, although they would prefer it to be 
otherwise, the government is likely to fall, and is likely to 
fall in a relatively short period of time, have powerful 
disincentives to make positive long-term decisions about how 
they run their province or about how they run their business, 
and have enormous incentives for corruption in the near term, 
to get while the getting's good and provide for a safe exile 
after a looming collapse that people worry is on the horizon. 
That has created powerful incentives for networks of officials 
to come together in exploitative predatory ways so as to 
provide for economic gain for themselves and the members of 
their network, while they still have the opportunity.
    And the taking of land, again, I think is, in many ways, 
the most virulent of these. It's not by any means the only 
piece of it, but it's the piece that's most threatening to the 
victims and tends, as a result, I think, to be the most 
important accelerant of insurgent activity in the country.
    I don't see anything in the society, political culture, or 
history of Afghanistan that says that it's an appropriate role 
for local government officials to throw people off their land 
and engage in corrupt real-estate deals that will enable short-
term windfalls to the officials involved. I think this is 
relatively recent in nature, and is potentially reversible if 
we put sufficient effort into it in multiple domains.
    Senator Corker. As we've evolved to this sort of ``good 
enough'' vision of Afghanistan that continues to change--and I 
know each of you have talked about how that needs to be defined 
more fully--you know, it really, when you spend time, as you 
have more than me, I'm sure--President Karzai--I mean, it's 
almost getting back to his vision. I mean, I think he wanted to 
make some accommodations with some of the warlords, early on, 
and wanted us to have less troops on the ground. And you're 
talking about local Shuras. Our State Department, on the other 
hand, was focused on a sort of a Western democracy-type system, 
with a judicial system and all types of things happening there. 
Is the State Department in sync with what the military is now 
envisioning as ``good enough?'' Are their activities in concert 
with that?
    Dr. Kilcullen. I think everybody's looking at me because I 
used to work in the State Department.
    I would actually characterize history slightly differently. 
I think that a lot of the decisions that were made, early in 
the process, about focusing on the central government were 
international community decisions made in Bonn and enforced 
through a series of international decisions.
    I do think that the State Department now is very aligned 
with what the military is trying to achieve in Afghanistan, 
primarily through the mechanisms of things like district 
support teams; the regional platforms, where we have senior 
civilian representatives out in each regional command, 
conforming what the State Department and the U.S. Agency for 
International Development is doing, alongside the military. 
We're also looking at a very substantial increase in the number 
of State Department officers and USAID officers deployed 
forward, from roughly 300, about 18 months ago, to nearly 1,200 
now. So, I think we've seen the State Department aligning and 
working very closely, hand in glove, with the military.
    The problem in the political environment, I don't think 
lies with our own civilian agencies; it lies primarily with 
Afghan officials, who--as Dr. Biddle said, their interests may 
be differently aligned from ours. And it's just beyond the 
ability of any foreign intervening actor to really change the 
calculus that local power elites have toward their own 
population, certainly in the time that we've been present in 
the country.
    So, I think the State Department, to the extent that it 
matters, is very fully aligned and has put a lot of effort into 
its activities. But, frankly, ultimately, that doesn't matter 
as much as what the Afghans themselves, particularly Afghan 
politicians and Afghan elites at the local level, actually 
decide about the process.
    Dr. Jones. I think the relationship between the military 
and civilian agencies, speaking from experience here, has 
definitely improved over the past 2 years, on this front, where 
especially organizations like the U.S. Agency for International 
Development's Office of Transition Initiatives, or OTI, has and 
is working, actually, fairly closely with Special Forces team 
on bottom-up initiatives, these kind of initiatives we've 
talked about.
    So, I think that Dr. Kilcullen is right, that this was an 
international issue for a long time. The military probably 
moved earliest on it, in around the 2009 period--but, I think, 
at this point, most everybody is on board.
    The biggest challenge probably is, when you get into rural 
areas of Afghanistan, the military footprint is still the 
largest, by far. So, if civilian agencies are restrained, 
either because of their presence at the Embassy in Kabul or at 
very finite number of provincial reconstruction teams or other 
places, it's the military out in the field that is the one that 
generally executes a lot of these governance, development, and 
military missions, just because they're the only ones out 
there, in a range of places.
    Dr. Biddle. I think a great deal of progress has been made 
in what is famously the hardest part of counterinsurgency. 
Unity of effort, even within the military, much less across the 
military and nonmilitary dimensions of the effort, is famously 
difficult in this sort of undertaking.
    That said, there are still some important challenges that 
remain. And I think they tend to stem, in part, from the 
underdevelopment of the government side of the campaign plan 
for the conduct of operations in the theater.
    There are a variety of tradeoffs between different parts of 
what we seek to do in governance development. Many of the local 
power brokers that we've been discussing earlier in the 
hearing, for example, have militias or other security services 
that we, from time to time, rely upon to augment our security 
effort in parts of the country. That creates a short-term 
security benefit and a long-term governance problem.
    To resolve these kinds of tradeoffs, and, most importantly, 
to prioritize and sequence their resolution--we're not going to 
simultaneously be able to constrain every malign actor in 
Afghanistan--we need to have a sense of who to start with, and 
in what order to proceed with the others. In order to do that, 
and to coordinate the resolution of those dilemmas and 
tradeoffs, with the State Department and with other countries 
that are part of the coalition requires, I think, a degree of 
explicit planning that, at the moment, I think, is still 
underdeveloped, relative to the planning that we do for the 
conduct of security operations in the country. I would like to 
see the governance side of the campaign plan get the degree of 
detailed development that the security side has had now for 
some years.
    Senator Corker. Well, thank you all. I'm going to leave and 
turn it over to Senator Shaheen. But, your testimony has been 
outstanding, and thank you for your contribution.
    Senator Shaheen [presiding]. I just have one question 
before closing.
    And, as you all were talking about what a negotiated 
settlement might look like, one of the things that no one 
mentioned was what happens to protect the rights of Afghan 
women as part of any kind of settlement. And what should we be 
doing to ensure that those rights aren't negotiated away as we 
might be talking to the Taliban or any other forces within 
Afghanistan?
    Dr. Kilcullen. The Taliban, about 12 months ago, changed 
their position on the education of women so that the current 
position which they are putting forward is that, ``It's 
perfectly okay for women to go to school. We want women to work 
productively and be part of the community. But, what's not 
acceptable is for foreigners to come in and tell us how to 
treat women in our community.'' And I think that was probably a 
tactical shift. It's hard to know whether they really----
    Senator Shaheen. Right.
    Dr. Kilcullen [continuing]. Meant that or not. But, it 
certainly was a response to popular pressure from the Afghan 
population, where people were saying, ``Well, hang on a second, 
if you guys come back in, what are the implications for us?''
    So, I think one of the things that we'll see, if we do get 
into a negotiation process, is that there's now a fairly 
significant body of public opinion in Afghanistan in favor of 
increased freedoms and increased equality for, you know, 50 
percent of Afghanistan. And I think that that's going to be a 
factor that any future settlement--all parties are going to 
have to take that into account, including the Taliban. Whether 
they really mean it or not, they'll have to engage with that 
desire at some point.
    Senator Shaheen. Thank you.
    Anything?
    Dr. Jones. Yes, I think this is an important issue. And I 
think what it comes down to, among other things, is, What is 
the vision, as part of a settlement, that the Taliban will 
agree to, in moving forward, in Afghanistan? If it's a vision 
that is much like the vision in the 1990s, with a whole range 
of issues--its treatment of women, which was, frankly, 
despicable; its treatment even of general forms of leisure 
activity, like kiteflying--that's the vision that is agreed on 
in a settlement; I don't think it's in the Afghan population's 
interest.
    If, on the other hand--as I think Dr. Kilcullen has already 
indicated, their positions are changing, at least among some 
commanders; and so, what is agreed as part of a settlement, is 
a different vision than they have laid out in the past, I think 
that is something that is acceptable.
    Now, the problem is, even on the protection of the rights 
of women, local Afghans across the country view this 
differently. So, in some areas of very conservative areas of 
the south, they may view it differently than in more 
progressive parts of urban Afghanistan, including Kabul. So, I 
would say, one has to proceed with some caution, here, that 
we're not pushing instability into some extremely conservative 
places too quickly.
    But, I will say that, in much of urban Afghanistan, there 
has been a fundamental change on the protection of the rights 
of women, from 10 years ago, when I first walked into Kabul. 
And even measuring the percentage of women who are walking with 
only a veil, or at least are mostly uncovered, as a percentage 
of--versus those who are wearing the full burqa, it is 
fundamentally different from 2001, when I was first there.
    Dr. Biddle. One of the arguments that's been made in favor 
of a more centralized system in Afghanistan is to allow for 
protections of minority rights and women's rights in ways that 
would not necessarily be favored in conservative locales in the 
south. If one is going to decentralize, in the interests of 
aligning ends and means in Afghanistan, one is going to, 
therefore, allow for the possibility of greater variance in the 
way that these issues are resolved in localities.
    Now, in exchange for a degree of acceptance of more 
conservative behavior in some parts of the south, however, one 
could also obtain a greater degree of liberalism among urban 
communities in parts of the country where attitudes toward, for 
example, women's education are more Western than what a 
national consensus could necessarily secure.
    But, one of the things that we have to think about, as we 
think about decentralization, is that it's not a panacea and 
there are costs involved to values that we care about in 
walking down that road. It's not an accident that the 2001 Bonn 
system and the 2004 constitution were wired together the way 
they are. We do give something up when we abandon that and 
accept a degree of decentralization.
    Now, one important protection that can mitigate the degree 
of loss to things that we value is if the system retains its 
democratic character as it decentralizes, inasmuch as the parts 
of Afghanistan in which a radical pre-2001 Taliban system of 
women's rights would be preferred are very, very few in number. 
As long as a Taliban representation in the Afghan Government 
has to compete, either for election to its seat or for 
influence over decided policies, with others in the Afghan 
public square, who are likely to represent true Afghan public 
opinion more accurately, we build in a degree of protection 
against radical oppression of women and minorities' rights.
    But, as we decentralize, we are inevitably going to be 
moving into an area in which we permit a greater degree of 
variation within Afghanistan and the way they make these 
choices.
    Senator Shaheen. Well, that only works, though, if you've 
got an election or a system of democracy that actually works 
and is not corrupt in the way that the elections ultimately 
work. So, you don't see this as an issue that you would put in 
that redline category, where you put the taking of land, then.
    Dr. Biddle. I think this gets to the question of, ``How 
much are we willing to invest to get a better result?'' I think 
a better result than a system tremendously reliant on brokered 
deals with local power brokers is a system that's much more 
reliant on democratic accountability and transparency as the 
way of controlling local behavior. That's probably going to be 
harder to obtain because the divergence between the interests 
of those who currently hold power in the periphery and that 
system is greater.
    But, I think, in general, when we think about long-term 
results in Afghanistan, to some extent you get what you pay 
for; and the more ambitious an outcome we hold out for, the 
greater the investment that's going to be required of us to 
obtain it. In many ways, the ideal outcome, from the standpoint 
of the United States, is the 2001 Bonn system, if we could find 
a way to make it work. The level of investment required to make 
it work, I think, is beyond the reasonably practical. And, 
therefore, that alternative, I think, is unrealistic.
    A decentralized democracy is more realistic, but will 
require greater investment than, for example, the alternative 
that I've been referring to as ``internal mixed sovereignty,'' 
in which we accept a degree of extra democratic behavior in 
localities, as long as they agreed to delimit what they do. If 
we're unwilling to make the investment required to bring about 
a decentralized but still democratic system, then we are stuck 
with outcomes that we don't like as much. I think there is 
inevitably a relationship between our ambitions and our 
investments.
    Senator Shaheen. Well, thank you all very much for being 
willing to stay. I wish I could have been here to hear the 
whole discussion.
    So, at this time, I'll close the hearing.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
